Advisory and Assistance Services

    A Practical Reference Guide





   President’s Council on Integrity and Efficiency
                        Prepared by the
             Inspections and Evaluation Roundtable

                       December 2000
             PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY

President’s Council on Integrity and Efficiency (PCIE) is comprised of all Presidentially appointed
Inspectors General. In addition, the Executive Order specifies the Office of Government Ethics,
the Office of Special Counsel, the Federal Bureau of Investigations, and the Office of
Management and Budget (OMB) as members of the PCIE. The Council is chaired by the Deputy
Director for Management at OMB and an Inspector General holds the position of Vice Chair.
The PCIE is charged with conducting interagency and inter-entity audit, inspection, and
investigation projects to effectively and efficiently deal with government-wide issues of fraud,
waste and abuse. The Council accomplishes this through committee activity. Established
committees of the PCIE include Audit, Inspection & Evaluation, Integrity, Investigations,
Legislation and Professional Development.


                   INSPECTIONS AND EVALUATION ROUNDTABLE

The Inspections and Evaluation Roundtable, created in 1993, is an organization of the directors of
inspections and evaluation units within Federal Offices of Inspector General. It exists to promote
the professional development of Offices of Inspector General employees working in inspection
and evaluation units, to improve the practice of evaluation and analysis in the Inspector General
environment, and to provide positive contributions to the Inspector General community as well as
the Federal Government as a whole in improving the management of Federal programs. The
Roundtable also serves as an adjunct to the Inspection and Evaluation Committee of the
President’s Council on Integrity and Efficiency (PCIE).

This guide was prepared at the request of the PCIE Inspection and Evaluation Committee and is
carried out under the auspices of the Roundtable steering committee.

Steering Committee                           Guide Preparation Team

George Grob, Department of Health            Perry A. Seaton, Project Leader
                and Human Services             Department of Health and Human Services
Tim Cross, Small Business Administration     Deborah Holmes, Program Analyst
Mary Demory, Department of Justice                     Department of Health and Human
                                                     Services
Al Schweitzer, Veterans Administration       Philip H. Hutchens, PhD,
David Cushing, National Aeronautics and        Expert Advisor and Lead Writer
                 Space Administration
                        TABLE                         OF             CONTENTS


                                                                                                                               PAGE

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


Acquisition Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

         Planning and Urgency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

         Contacts with Potential Contractors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


Management of the Contracting Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         Teamwork . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         Acquisition Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         Acquisition Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


Identifying the Contractual Need . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

         Deciding When to Contract . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

         Uses for Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


Prohibited Contracting Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

         Prohibited Contract Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

         Prohibited Contract Provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


Key Pre-solicitation Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

         Market Research . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    20

         Methods of Contracting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       21

         Commercial Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      22

         Types of Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23


Preparing the Statement of Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

         The Heart of the Contract . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

         Performance-based and Performance-oriented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


Preparing the Written Solicitation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

         Contract Clauses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

         Evaluation Factors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30


A “Best-value” Approach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

         Selecting the Winner(s) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

         Contract Prestige . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

         Business Size . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                                                                                                                             PAGE

Quality Assurance Through Contract Administration . . . . . . . . . . . . . . . . . 36

      Before Work Begins . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          36

      Monitoring the Contractor’s Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                37

      Modifications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   39

      Funds and Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        40


APPENDICES

      A: Resources for Further Study . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41


      B: A Typical Statement of Work for Advisory and Assistance Services . . 42

            < Sample Outline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

            < Sample Statement of work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44


      C: 	Sample Contract Clauses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     50

            < Contractor’s Conflict of Interest Statement . . . . . . . . . . . . . . . . . . . . . . . . .                           50

            < Sections G and H Considerations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       51

            < Section H - Other Optional Contract Considerations . . . . . . . . . . . . . . . . . .                                  53

            < Key Personnel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             54

            < Contractor’s Pride of Authorship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      55

            < Task Order Competition and Ordering Procedures . . . . . . . . . . . . . . . . . . . .                                  56


      D: Federal Acquisition Regulation Definitions of Glossary Terms . . . . . . . 58

                             INTRODUCTION


This guide was prepared by the Inspections and Evaluation Roundtable at the request of the
Committee on Inspection and Evaluation of the President’s Council on Integrity and Efficiency. It
provides an overview of the legal and practical aspects of obtaining various “intellectual” services
from contractors as well as advice on the proper and effective use of such contracts. The
Committee had determined that common sense advice on how to effectively obtain advisory and
assistance services was needed.

This guide is written primarily for project officers considering the use of advisory and assistance
services contracts. It should be regarded as a “coaching document”. Also, it has corollary
benefits for those considering the use of other services contracts and as an introduction to service
contracts for new staff. It is not a substitute for formal training, nor does it replace or supercede
Federal law, regulations [including the Federal Acquisition Regulation (FAR)], or internal agency
guidelines. For most staff, especially those acting as project officers, additional training in
contract management will be required.

We held numerous interviews with Offices of Inspector General staff and contracting officers to
obtain their perspectives on contracting issues of greatest concern to the Inspector General
community. In addition, we contracted with an expert consultant and solicited guidance from
other experts in the contracting community to prepare this guide.

Service Contracts. This guide focuses on the effective use of advisory and assistance services
contracts, but it applies as well to most other services contracts typically used by the Inspector
General community. Advisory and assistance services contracts are useful when expertise is
required, but the need is not great enough to justify hiring a staff person to perform the function.
Use of outside contractors allows the Offices of Inspector General to get a higher payback for
dollars expended due to the contractors’ ability to specialize in one area. It is not cost effective
for the Offices of Inspector General to internally perform all functions required by its mission.
These contracts free up staff time for pursuing other activities important to the individual Offices
of Inspector General. Through increased knowledge of the contracting process, advisory and
assistance services contracts can be an effective tool of any Office of Inspector General.

The distinction between advisory and assistance services and other services contracts is important
because the procedures and regulations vary somewhat depending upon which classification
applies to a particular acquisition. However, distinguishing the type of service contract is not
easy. It involves technical issues in addition to the nature of contract work to be performed.
Therefore, the project officer and the contracting officer must work together to correctly classify
each services contract.

The following definitions and discussions will assist project officers in fulfilling their
responsibilities in distinguishing between the two types of services contracts and understanding
why a contracting officer may take a particular stance on certain technical aspects of the
classification.



                                                  1

      <	 Advisory and assistance contracts. Advisory and assistance services contracts include
         those designed to support or improve: organizational policy development; decision-
         making; management and administration; program and/or project management and
         administration; research and development activities; and professional advice and
         assistance about management. Outputs from advisory and assistance contracts may
         include information, advice, opinions, alternatives, analysis, evaluations,
         recommendations, training, and the day-to-day aid of support personnel. [See Federal
         Acquisition Regulation Subparts 2.101 and 37.2 for further edification.]

      <	 Other services contracts. Contracts, other than advisory and assistance services
         contracts, which directly engage the time and effort of a contractor whose primary
         purpose is to perform an identifiable task rather than to furnish an end item of supply.
         Outputs from these contracts may include auditing functions such as the Chief Financial
         Officer audits.

      <	 Exclusion for information technology. Routine information technology services
         generally are excluded from classification as advisory and assistance services contracts.
         [See Federal Acquisition Regulation Subpart 37.202.]

      <	 Audit services. Categorization of audit services is discussed in Office of Management
         and Budget Circular A-11 (1999). Financial statement auditing is excluded from the
         advisory and assistance services category and, therefore, is categorized as other services.
         The Federal Acquisition Regulation includes performance auditing in its definition of
         advisory and assistance services. It is interesting to note that auditing constitutes the
         single largest category of services contracts for Offices of Inspector General.

      <	 Importance of the distinction. The proper classification of service contracts is important
         since the resultant contract requirements and restrictions differ. [See Federal
         Acquisition Regulation Subpart 16.504(c).] When contracting for advisory and
         assistance services, use of multiple awards usually is required when the contract exceeds
         3 years and $10 million. However, the requirements for other services contracts are
         stricter, requiring the contracting officer to give strong consideration to the use of
         multiple contractors when the costs exceed the simplified acquisition threshold (currently
         $100K). Under either classification, when multiple awards are made, all contractors
         must be given a fair opportunity to compete for each task order over $2,500. [See
         Federal Acquisition Regulation Subpart 16.505(b)(1)(I).]

Contractor Selection and Monitoring. Advisory and assistance services contracts are most
effective when attention is focused on contractor selection and monitoring of their performance.

       <	   Contractor selection. Once a decision is made to acquire services through
            contracting, it is often difficult to quantify the criteria for selecting the contractor.
            Care must be taken to encourage competition and select a contractor who will
            perform as expected.

       <	   Monitoring contractor performance. After contract award, care must be taken to
            monitor the contractor’s performance to ensure it performs as expected throughout


                                                   2

            the life of the contract. Performance of even the best contractors should be carefully
            reviewed.

Elements of the Contract Management Process. There is no uniform agreement on how to list
the various steps in the contracting process. Contracts tend to go through similar processes, but
different parts of the process get varying degrees of emphasis depending on the contract. This
guide will discuss the nine most common contract elements associated with advisory and
assistance services and other services contracts. These are:

       <    Acquisition planning,

       <    Management of the contracting process,

       <    Identifying the contractual need,

       <    Prohibited contracting actions,

       <    Key pre-solicitation decisions,

       <    Preparing the statement of work,

       <    Preparing the written solicitation,

       <    A “best-value” approach, and

       <    Quality assurance through contract administration.


These nine contract elements are reflected in the table of contents and throughout the guide.
Accompanying each element is a discussion of issues important to the Offices of Inspector
General along with a corresponding statement discussing why the issues are important and
offering considerations for effectively dealing with the issues as they arise.




                                                 3

                                  GLOSSARY


This glossary defines contracting terms in simple, practical language for program offices.
However, technical definitions for many of these terms are contained in the Federal Acquisition
Regulation, and a number of these terms are defined in Appendix D using Federal Acquisition
Regulation wording. As needed, you should reference the Federal Acquisition Regulation or
contact your contracting officer to obtain further clarification and guidance.

Advisory and Assistance Services Contracts. A category of services contracts where the
purpose of obtaining the services is to improve policy making, decision-making, management,
administration, etc.

Blanket Purchase Agreement. An agreement with a contractor or business to supply many
inexpensive items or services upon request and then provide a monthly bill for all small items.

Commerce Business Daily. A daily publication listing Federal contracting opportunities above
$25K and other announcements relating to contracting. The list is available electronically or in
hard copy. The web site is: http://cbdnet.gpo.gov. Depending on the method of contracting
used, the formats of the list vary as do the number of days the government must wait before
closing competition.

Commercial Services. Services offered and sold competitively in substantial quantities in the
commercial marketplace based on established catalog or market prices for specific tasks
performed under standard commercial terms and conditions.

Conflict of Interest. When one has the opportunity to advance or protect one’s own interest or
the private interest of others, with whom one has a relationship, in a way detrimental to the
interests, or potentially harmful to the integrity of the Federal Government.

Contracting Officer. A government employee with expertise in Federal contracting. Normally
the only official authorized to negotiate with a contractor, award or modify contracts, change the
terms of the contract, etc.

Contracting Officer Technical Representative (COTR). A government employee who has
technical expertise associated with the services being provided by the contractor. The contracting
officer relies on the COTR to manage the performance of the contractor from a technical
perspective. The contracting officer appoints the COTR and specifies specific authorities in
writing. This individual may perform only those functions that have been delegated by the
contracting officer, and may not sign, modify contracts, or take other actions that are reserved to
the contracting officer.

Critical Need. A sudden or unexpected occurrence; an emergency; a pressing necessity; or an
exigency. Such occasions are characterized by additional work or deadlines required by statute,
Executive Order, court order, regulation, or formal directive from the head of an agency or



                                                 4

subordinate official authorized to take final action on behalf of the agency head. A recurring,
cyclical peak workload, by itself, is not a critical need.

8(a) Contracts. A Small Business Administration (SBA) program where Federal contracts may
be awarded with limited competition. Only contractors with Small Business Administration 8(a)
status are able to be considered for award of these contracts. The Small Business Administration
determines if a company qualifies for 8(a) status based on its size and whether it is owned by
someone classified as economically or socially disadvantaged. Contracts valued at less than
$3 million can be awarded under the 8(a) program without competition. Contracts in excess of
$3 million require competition among 8(a) firms.

Federal Supply Schedule (also referenced as GSA Schedule). General Services
Administration (GSA) contractors available under pre-awarded task order contracts for common
services. These schedules require minimum competition and may be used by Federal agencies,
including Offices of Inspector General. These schedules may be used by others (e.g., contractors)
if the contract permits.

Firm-fixed Price Contract. A contract in which the contractor agrees to perform the entire job
for a pre-determined price.

Full and Open Competition. A basic tenet of Federal contracting in which all responsible
sources are permitted to compete (large and small businesses). However, use of the term is
confusing as many contracting officers refer to a buy as being full and open after sources have
been excluded. For example, a contract may be set aside for small businesses, and no large
contractor is permitted to compete. However, there are only seven legal exceptions considered
appropriate for issuing a contract without allowing for full and open competition (reference FAR
Part 6.302).

Indefinite-delivery-indefinite-quantity Contract. A contract where the precise amount of
work and the time needed is not known. For example, the Offices of Inspector General could
contract for audit services over a 1 year period and issue task orders when the need for the audits
arise and then specify in the task order how much work is expected.

Labor-hour Contract. A contract where the contractor is paid only for hours worked and not
for a completed task.

Open Market. All responsible sources are permitted to compete regardless of whether or not the
solicitation may have some source restrictions. For example, a contract may be reserved for small
businesses, but all responsible small businesses are permitted to compete. Also, in the contracting
community this phrase is often used loosely to refer to a more competitive solicitation as
compared to a one with narrow competition. As an example, the General Services Administration
Federal Supply Schedule, limits competition to 8(a) contractors, or using other agency contracts.

Other Services Contracts. A contract, other than advisory and assistance services, that directly
engages the time and effort of a contractor whose primary purpose is to perform an identifiable
task rather than to furnish an end item of supply.



                                                 5

Performance-based Contracts. Contracts intended to ensure that required performance quality
levels are achieved and that total payment is related to the degree that services performed meet
contract standards. These contracts usually (1) describe performance in terms of results required
rather than the methods to be used to perform the work; (2) use measurable performance
standards; (3) use positive incentives to encourage effective performance.

Personal Services Contract. A contract that, by its express terms or as administered, makes the
contractor personnel appear, in effect, to be Federal employees. These contracts normally are not
authorized unless a governmental entity has special legislative authority to do so.

Private Sector Temporaries. Employees of a temporary help service firm who are supervised
and paid by that firm. Their employees are assigned to various client organizations who have
contracted for the temporary use of their skills.

Project Officer. As used in this guide, staff representing the programmatic or operational
expertise in the contract management process. This official works with the contracting officer to
assure that contracting needs are appropriately and specifically described. S/he is primarily
responsible for preparing the solicitation, conducting technical reviews of proposals, etc. This
official does not have authority to negotiate, award, or modify contracts.

Request for Information (RFI). An announcement in the Commerce Business Daily asking
contractors to provide marketing information about their services. The information received will
help in the preparation of a synopsis for later publication in the Commerce Business Daily.

Simplified Acquisition Method. A prescribed approach to contracting that simplifies a number
of traditional contracting procedures, such as shortened synopsis, reduced time for contractors to
reply to a solicitation, simpler and faster contractor evaluation, etc.

Simplified Acquisition Threshold. The maximum dollar amount of a contract that may be
awarded under the Simplified Acquisition Method (currently $100K for non-commercial supplies
or services and $5 million for commercial supplies and services).

Small Business. A business defined as “small” in accordance with standards published in Part 19
of the Federal Acquisition Regulation. Basic Federal government policy is to restrict competition
for any contract to small businesses if there are two or more responsible small businesses that can
do the work at a fair and reasonable price.

Small Business Set-aside. A solicitation announcing that the Office of Inspector General will
accept offers only from small businesses.

Sole Source Acquisition. Soliciting and negotiating with only one source.

Solicitation. A request for offers. The request may be written, electronic, or oral.

Statement of Work. The portion of a solicitation or contract that specifies the technical
objectives and requirements of the contract.




                                                 6

Synopsis. A short description of a Government solicitation, acquisition, or other related contract
announcement, published in the Commerce Business Daily for one of the following purposes: (1)
alert interested parties to an upcoming acquisition; (2) find sources to provide services or items to
the Government; or (3) inform interested parties of the result of an acquisition, etc.

Task Order. An order to perform work that is issued under the terms of an indefinite-delivery-
indefinite-quantity contract.

Temporary Help Service Firm. A private sector entity that quickly provides other organizations
with specific services performed by its pool of employees, possessing the appropriate work skills,
for brief or intermittent periods. The firm is a legally responsible employer and maintains that
relationship during the time its employees are assigned to a client. The firm, not the client
organization, recruits, tests, hires, trains, assigns, pays, provides benefits and leave to, and as
necessary, addresses performance problems, disciplines, and terminates its employees. Among
other employer obligations, the firm is responsible for payroll deductions and payment of income
taxes, social security (FICA), unemployment insurance, and workers’ compensation, and shall
provide required liability insurance and bonding.




                                                  7

               ACQUISITION PLANNING


                                  Planning and Urgency

The Importance of Planning. Planning for an acquisition is required by regulation and is the
best way of ensuring that needed services will be obtained in an effective, economical, and timely
manner. Acquisition planning involves a general consideration of the elements required for a
particular contract. The process may be quite simple or very elaborate depending upon the dollar
size of the anticipated contract and its complexity. Larger, more complex acquisitions generally
have a written plan. Smaller and simpler ones may not need a written plan but will still require
that the acquisition be thought through. Through planning, the many steps and personnel
involved in the contracting process can be coordinated and potential problems identified and
resolved.

During contract planning, the project officer and the contracting officer should work together to
explore that particular Office of Inspector General’s history in acquiring the needed services.
Also, planning allows for a review of the acquisition to assure, for example, that the contract is
not for “inherently governmental functions” (e.g., acquisition of criminal investigation services)
which is prohibited under Federal law. [See the chapter on “Prohibited Contracting Actions” for a
discussion of “inherently governmental functions.”] Planning includes “market research” which
may be needed to learn about the numbers and types of qualified contractors available and to
identify the prevailing practices for acquiring these services. In addition, contract planning
addresses various parts of the contract solicitation including:

       <    a statement of work,

       <    the process for evaluating the offerors, and

       <    the process for administering the contract after its award.


The solicitation specifies the number of awards anticipated and contract type (e.g., by the hour or
by the contract).

Problems with Urgent Acquisitions. An urgent need for services frequently results in a
shortened planning process resulting in the following types of contract problems.

       <    less competition

       <    increased prices

       <    electing to use an hourly rate when a more economical total contract price would

            have been appropriate
       <    selection of the wrong method or type of contract
       <    not using the most economical contract type

Urgent acquisitions can result in the award of unneeded contracts and/or contracts for unneeded
or unintended services (e.g., due to fiscal year budget deadlines, contracts may sometimes be
rushed through without careful review of the contract requirements, including the specified tasks).


                                                 8

Modifying such contracts to correct the statement of work can lead to increased costs. Further,
urgent acquisitions can result in incorrect estimates of the contract costs, resulting in budget and
funding problems. All of these problems are correctable but at a loss of time and money. These
issues are specifically addressed in the Federal Acquisition Regulation, where it states, in essence,
that urgency is not a sufficient reason for a lack of planning. [See Federal Acquisition Regulation
Subpart 7.104(b).]


                          Caution: urgency and compelling situations

       Even if the acquisition requirement is urgent, Offices of Inspector General are
       required to obtain offers from as many sources as is practicable. See Federal
       Acquisition Regulation Subpart 6.302-2.


Use of Private Sector Temporaries. Agencies may enter into contracts with temporary help
service firms for the brief or intermittent use of the skills of private sector temporaries. Use of
their services is subject to one of the following short-term situations:

       <	   An employee is absent for a temporary period because of a personal need, but not
            including vacations or other circumstances which are not shown to be compelling in
            the judgment of the agency, or

       <	   An agency must carry out work for a temporary period which cannot be delayed in
            the judgment of the agency because of a critical need.

An additional condition for use of temporaries is if the need cannot be met with current employees
or through the direct appointment of temporary employees within the time available by the date,
or for the duration of time help is needed. Agencies may not use temporary help services for the
Senior Executive Service or for the work of managerial or supervisory positions. Services
furnished by temporary help firms are not to be regarded or treated as personal services. To
avoid creating any appearance of an employer-employee relationship, agencies must observe the
following requirements:

       <	   An agency may use a temporary help service firm(s) in a single situation initially for
            not more than 120 workdays, but may extend the use of the services up to the
            maximum limit of 240 workdays.

       <	   An individual employee of any temporary help firm may work at a major
            organizational element (headquarters or field) of an agency for up to 120 workdays in
            a 24-month period; however, an agency may authorize an individual to work up to a
            maximum of 240 workdays when the agency determines that using the services of the
            same individual for the same situation will prevent a significant delay.




                                                  9

               <	 Individual employees of a temporary help firm providing temporary service to a
                  Federal agency are eligible for competitive civil service employment only if
                  appropriate civil service hiring procedures are applied to them.

The temporary help firm is the legally responsible employer and maintains that relationship during
the time its employees are assigned to a governmental entity. The entity can provide technical,
task-related instructions to private sector temporaries including orientation, assignment of tasks,
and reviewing work products in order that the temporaries may properly perform their services
under the contract.

The Office of Personnel Management has issued regulations on the use of private sector
temporaries and may require governmental entities to provide information on their use of
temporary help service firms. [See Federal Acquisition Regulation Section 37.112 and Code of
Federal Regulations, Title 5, Part 300, Subpart E]


                         Contacts with Potential Contractors
When Contacts with Potential Contractors are Necessary. Generally, project officers are
encouraged to have contact with the market as needed to learn about market conditions prior to
contract solicitation. The purpose of the contacts is to learn about the market, obtain potential
contractor capability statements, and collect other marketing information related to a possible
solicitation for services.

The project officer should be careful not to negotiate in any way with a prospective contractor or
suggest that s/he has personal authority to award contracts. Such representations lead to distrust
by the contracting community. Formal contract solicitations are issued so that all contractors get
the same information at the same time. After release of the solicitation, refer all inquiries to the
contracting officer. The following suggestion will help maintain impartiality:

       Give all interested contractors the same opportunities and courtesies. If staff members
       meet with one contractor, then they should be prepared to meet with others. Also, some
       contractors can become quite troublesome if they believe they can obtain a contract
       through you. The contracting officer can help select from a variety of forums to meet with
       prospective contractors, including pre-solicitation meetings if necessary.

[See FAR Subpart 15.201 for additional guidance on contacts with potential contractors.]

When a Contractor Helps Prepare the Solicitation. Generally, Office of Inspector General
staff will prepare the “Statement of Work” and other parts of the solicitation. However,
sometimes it is necessary to contract for technical help to prepare the Statement of Work or other
parts of the solicitation. When a contractor is used to work on a solicitation, that contractor is
precluded from being awarded the contract, due to a conflict of interest. Since these cases can be
problematic, it is important to make such restrictions clear to any contractor before they begin
working on pre-solicitation activities on behalf of the Office of Inspector General. Also, it is
recommended that Offices of Inspector General consult with their Offices of General Counsel
prior to informing such a contractor that their offer cannot be accepted. [See Federal Acquisition
Regulation Subpart 9.505-2.]


                                                 10

                MANAGEMENT OF THE

               CONTRACTING PROCESS


                                          Teamwork

The Importance of Teamwork in Acquisition Management. Users of the acquisition process
face a demanding management task. They are required by regulation to make acquisitions with
consideration for the cost, quality, and timeliness of the delivered service. Additionally, they are
required to minimize administrative costs and ensure the acquisition is conducted with integrity,
fairness, openness; and in fulfillment of public policy objectives. Therefore, regulations require
the use of a team approach, training in acquisition management, and knowledge and control of the
acquisition process.

The Acquisition Team Approach. Federal acquisitions are always a team effort. Two of the
more prominent members of the team are the project and contracting officers. They work
together on much of the contract, and there is a need for close collaboration and coordination
between these two organizations. The following examples illustrate the importance of this
teamwork.

                                  Functions of the                  Functions of the
 Common Contract Tasks            Project Officer                   Contract Officer
 Market Research                  Performs market research to       Maintains information on
                                  learn about available             available contractors and
                                  contractors and practices in      commercial practices
                                  the commercial marketplace
 Statement of Work                Prepares the Statement of         Reviews the Statement of
                                  Work that is specific and         Work for legal sufficiency
                                  complete for the contract
                                  needs
 Contract Performance             Administers the day-to-day     Addresses contractor
                                  monitoring of the contractor’s performance issues raised by
                                  performance and prepares       the project officer
                                  evaluation reports

Team members may include budgeting and fiscal staff, legal experts, small business specialists, the
competition advocate, and a host of others, such as head of the contracting authority,
governmental entity head and staff, senior procurement executive, quality assurance staff, etc. It
is important that team members be trained and capable of performing their particular areas of
responsibility.




                                                11

                       Tips for developing effective working relationships
                                    with contracting officers

       <	 Contracting officers are an important resource because of their knowledge of
          the regulations and their background and training. Consider the advice of the
          contracting officer carefully, since their expertise and assistance is invaluable in
          moving a contract along quickly and efficiently. As part of your initial
          communication with the contracting officer, provide a complete explanation of
          the services needed and the expected time frames and quality of performance.

       <	 Contracting regulations and legal activities impacting implementation of
          contracting regulations are extensive, complex, varied, and constantly changing.
          Navigating in contractual waters requires an experienced contracting officer.
          No matter where the contracting officer is located organizationally, a
          partnering-type relationship between the project officer and the contracting
          officer is necessary to get the job done efficiently and effectively within the
          regulations.

       <	 Work with the Contracting officer as a valued team member to find the most
          efficient way to accomplish the project. The contracting officer cannot be
          expected to know intuitively what is needed in a contract. Openly inform a
          contracting officer what is needed and why (e.g., meeting urgent needs). A
          good technique is to ask them for options on how a particular contractual need
          can be effectively accomplished. Show your appreciation for a contracting
          officer who gets the job done efficiently within the parameters of the
          regulations.

       <	 Have the contracting officer attend all planning meetings from the beginning.
          Their background, advice, and experience are invaluable in laying out an
          effective and efficient contract plan and time schedule for award.


Selecting appropriate contract methods, types, and terms and conditions is critical to contract
success and requires a team approach. The contract vehicle affects: the extent and intensity of
competition, amount and type of notice provided the private sector, the solutions and prices
available and offered, the time to contract award, contractual terms and conditions, type of
contract and incentives, degree of control over contract management, fees paid, and protest
exposure. Acquisition reform has resulted in an unprecedented degree of choice, ranging from the
use of existing contract instruments to the award of new contracts using full and open competitive
source selection. Simplified acquisition procedures permit a competition that can be completed in
days (under $25,000) to weeks (over $25,000). A guiding principle for the Federal Acquisition
System is that each member of the Acquisition Team will exercise personal initiative and sound
business judgment in providing the best value product or service to meet the Government’s
requirement. In exercising initiative, Government members of the Acquisition Team may assume
if a specific strategy, practice, policy or procedure is in the best interests of the Government and is


                                                  12

not addressed in the Federal Acquisition Regulation, nor prohibited by law (statute or case law),
Executive Order or other regulation, that the strategy, practice, policy, or procedure is a
permissible exercise of authority. [See Federal Acquisition Regulation Subpart 1.102]

Acquisition Management Training. Project officers are encouraged by regulation to complete
contract management training. The question is, however, How much technical training do project
officers need when the contracting officer is considered to be the team’s technical expert?

The pervasiveness of contracting for services and the growing use of such services by the Offices
of Inspector General suggests that project officers need a solid understanding of the contracting
process. As a general rule, project officers will do a better job when their contract knowledge is
more extensive rather than less extensive. This knowledge is particularly important because the
Offices of Inspector General frequently review contracting programs as part of their basic mission.
In short, training in a wide range of contracting areas gives project officers a basis for more
informed decisions. Minimum training needs include the “Project Officer” course, or training as a
“Contracting Officer’s Technical Representative.” Both of these courses provide a
comprehensive overview of the contracting process. Other basic courses to be considered include
those with emphasis on an introduction to Federal contracts, contract administration, and the
simplified acquisition method. Such courses are available from a wide variety of sources.


                                     Acquisition Integrity
Maintaining Public Trust. An essential aspect of acquisition management is maintenance of
public trust. Offices of Inspector General no doubt are held to an even higher ethical standard
than other government entities due to the nature of oversight performed regarding the actions of
other civil servants. General integrity applies not only to the system but to the actions of each
team member. The foundation of integrity is a management team that is competent, experienced,
well trained, and professional. Integrity requires fairness and openness in management of the
acquisition process. Be objective in all elements of the acquisition process and be honest with the
contracting community. Conflicts of interest, favoritism, nepotism, and cronyism in the
contracting process are unlawful, contrary to Office of Inspector General objectives, and contrary
to basic tenants of a democratic society. The Standards of Ethical Conduct for Employees of the
Executive Branch set forth in 5 CFR 2635 and criminal conflict of interest statutes (i.e.,
18 U.S.C. 201, 203, 205, 208, and 209) provide guidance in determining whether conduct is
proper.

To help avoid conflict of interest situations, each Office of Inspector General should periodically
evaluate the effectiveness of its management control systems for acquisition of services. Bring
any potential conflict of interest to the attention of the contracting officer and/or a senior Office of
Inspector General official so that it can be appropriately addressed. Do not let contractor
marketing efforts, favors, or gratuities influence the determination of contract requirements, or
create the appearance of impropriety in the acquisition process. Integrity goes beyond just being
aware of it. Remember, passing an ethics exam does not automatically make you an ethical
person. Ethics is an ongoing aspect of contracting. One inappropriate action can taint an Office
of Inspector General, if not the entire Inspector General community.




                                                  13

Pay special attention to contracts that might be with former Inspector General employees. Such
contracts are not necessarily illegal, but there are some prohibitions against directly contracting
with recent Federal Government retirees that are based on integrity considerations. [See Federal
Acquisition Regulation Part 3.] Also, departmental regulations may vary with respect to
contracting with former employees. Most departments have an ethics officer for consultation
regarding integrity issues. Consult with that officer and with the contracting officer if former
employees are offering on a contract. Such contracts have a higher propensity for conflicts of
interest.

Contractors also are held to ethical standards. See Appendix C for a sample contract clause about
a “Contractor’s Conflict of Interest Statement” that may be inserted in the contract solicitation.


                   Tips on using the contractor’s conflict of interest clause

       The contractor’s conflict of interest clause is designed to preclude contractors
       from being awarded contracts that cause them to have organizational conflicts of
       interest. For example, it may preclude contractors from auditing an entity for the
       Office of Inspector General when they have other contracts with that entity. Or, it
       might prevent them from auditing a system they designed and built. Another
       example of a common conflict is if any of the potential offerors were involved in
       preparation of the solicitation. A different example of conflict would occur if the
       contractor inappropriately uses one contract to set up receipt of another.

       When conflicts of interest arise, they need to be resolved, and they will usually
       require assistance and guidance from the ethics officer and the Office of General
       Counsel. Legal assistance should also be sought if a contractor claims an apparent
       conflict of interest does not exist (e.g., a large firm with multiple contracts under
       different divisions and/or different lines of authority).



                                 Acquisition Procedures

Clearance Procedures. Office of Inspector General managers should consider requiring that the
initiation of advisory and assistance services contracts be cleared through a central point in their
organization for oversight purposes. Several Inspectors General already have a standard
clearance process and form for this purpose. However, such a clearance process may be more
important in large offices having a dispersed field system.



                                Tip about acquisition procedures

       Take the time to learn internal contracting procedures -- the “paperwork” process.
       This will expedite the award.




                                                 14

Location of Office Awarding Contract. The organizational location of the contract awarding
authority has integrity implications and involves three basic options: (1) the contracting office
awarding these contracts may be located organizationally within the Office of Inspector General
itself; (2) the contracting office may be located outside the Office of Inspector General within the
department it serves or in an entirely different department; or (3) a combination of these options
that involve the issuance of small acquisitions from within the Office of Inspector General and use
of an outside contracting component for the larger ones. The following discussion examines the
positives and negatives of these options.

The Offices of Inspector General may have greater control over the contracting process when
contracting officers are their own employees. The confidentiality of the project may warrant
keeping the contracts in-house. Also, contracting expertise may not be available in an outside
component.

However, a primary concern with keeping the contracting function in-house is that most Offices
of Inspector General have very small contracting staffs. It is difficult for a small staff to maintain
technical proficiency or to maintain the administrative apparatus necessary to support an up-to-
date contracting operation. Therefore, outside advice may be better. Also, outside sources are
better able to handle a sudden increase in contracting needs due to their larger and more flexible
staffs. Equally important is the “liability” that goes with in-house procedural mistakes. If a
mistake is made by a contracting officer located organizationally outside the Office of Inspector
General, then the Office of Inspector General may be less culpable both legally and in the eyes of
those who might be concerned about the operations or conduct of its staff. This may provide a
greater level of comfort when implementing contracting regulations. Furthermore, using outside
contracting officers is apt to save time, money, and effort.

There could be a conflict of interest for any Office of Inspector General to audit an acquisition to
which it is a party. Such a conflict could exist even if a contracting officer is located in a different
division of the department served by that Office of Inspector General or in an outside entity.
Therefore, the Office of Inspector General should determine whether an in-house or outside
contracting officer will better meet their needs, since acquisition sensitivity issues can be explained
equally well to either contracting entity.




                                                  15

                     IDENTIFYING THE

                    CONTRACTUAL NEED


                              Deciding When to Contract

Determining Bona fide Need. A decision must be made that a bona fide need exists for contract
services. Determining whether or not such a need exists is not always easy since there is usually
some in-house capability to perform these services. In addition, contracting always comes with
attendant new problems and demands on a project officer’s time.


                             Tip regarding the need for contracts

       Consider contracting as a legitimate way of getting the work done. For example,
       more OIG work could be performed by contracted entities. Review this guide and
       be confident that contracting for services can work effectively to free up staff for
       higher organizational payoffs.




                                    Uses for Contracts

Standard Uses for Contracts. There are six standard uses for advisory and assistance services
contracts which are legitimate ways to accomplish organizational goals. According to Federal
Acquisition Regulation Subpart 37.203, such contracts may be used to improve management of
services and operations by ---

       (1) Obtaining outside points of view to avoid too limited judgment on critical issues;
       (2) Obtaining advice regarding developments in industry, university, or foundation
           research;
       (3) Obtaining the opinions, special knowledge, or skills of noted experts;
       (4) Enhancing the understanding of, and developing alternative solutions to, complex
            issues;
       (5) Supporting and improving the operation of organizations; or
       (6) Ensuring the more efficient or effective operation of managerial or hardware systems.

Typical Offices of Inspector General Uses for Services Contracts. The following list contains
examples of uses for typical advisory and assistance services contracts:

       <    Compliance and/or Evaluation studies;

       <    Consultant and various professional expertise;

       <    Expert testimony or witness;

       <    Medical record review;




                                                16

       <  Organizational reviews and studies;

       <  Personnel analyst services for position classification, staffing, and employee

          recruitment;
       <  Pre-trial consultation services for prosecution of criminal cases;
       <  Sampling;
       <  Specialized studies; and
       <  Telephone assistance (e.g., answering fraud hotline calls where the contractor is paid
          on a per call basis);

Typical Offices of Inspector General Uses for Other Services Contracts. The following list
contains examples of uses for other services contracts:

       <  actuarial services
       <  financial statement auditing (e.g, internal controls; compliance issues, and computer
               based systems
       <  other auditing services, including
             --auditing of Department-wide systems;
             --auditing mandated by the Chief Financial Officer (CFO) Act;
             --auditing and reviews mandated by the Government Performance and
               Results Act (GPRA);
             --auditing of programs; and
             --consolidated financial reporting (preparing the audit report);

Inherently Governmental Functions.

When contracting for services, the Inspector General needs to determine in each and every case
that the proposed contract is not for an item or service specifically defined by the FAR as being an
inherently governmental function. [See more discussion of this topic in the next section of this
handbook and refer Prohibited Contracting Actions and Federal Acquisition Regulation Subpart
7.503]. When there is some doubt or question concerning whether the contract may fall into this
area, consult with the contracting officer and the Office of General Counsel for advice.


                                 Tips on key situations to avoid
                                 when using services contracts

       The following problem areas generally are the result of poor planning, inadequate
       contractor selection procedures, and not fully understanding and enforcing the
       contract terms;

               <  lack of creditable contractor staff and creditable findings or statements
                  from the contractor;
               <  lack of confidence in contractors’ staff;
               <  contractors submitting frequent requests for cost increases; and
               <  contractors failing to meet time frames.

       Information presented throughout this guide will be useful in avoiding these
       problems. However, if the project officer feels that any of the above situations
       cannot be avoided when contracting, then consideration should be given to
       performing the required work with Federal employees.




                                                17

                    PROHIBITED

                CONTRACTING ACTIONS



                               Prohibited Contract Work

Standard Prohibitions. The Federal Acquisition Regulation Subpart 37.203 lists five prohibited
uses for advisory and assistance services contracts-­

       (1) to perform work of a policy, decision-making, or managerial nature which is the direct
           responsibility of agency officials [see discussion of inherently governmental functions
           below];
       (2) to bypass or undermine personnel ceilings, pay limitations, or competitive employment
           procedures;
       (3) to contract with former Government employees on a preferential basis;
       (4) to aid in influencing or enacting legislation; or
       (5) to obtain professional or technical advice which is readily available within the agency
           or another Federal agency.

Prohibition on Contracts for Inherently Governmental Functions. Services that are
inherently governmental in nature shall not be acquired. The gathering of information and the
provision of advice, opinions, or recommendations are normally acceptable for acquisition.
However, contracting for policy decisions is not allowable as this is an inherently governmental
function. Also, contracts should not be used to prepare testimony for presentation to Congress or
for lobbying Congress. Review the statement of work to assure that no functions of this type
have inadvertently crept into the writing. Finally, be careful about allowing the contractor to
accept products or activities on behalf of the Government. Such actions are normally considered
to be inherently governmental functions. [See Federal Acquisition Regulation Subpart 7.503.]


                            Prohibited Contract Provisions

Prohibition on Personal Services. Personal services contracts generally are not allowable. [See
Federal Acquisition Regulation Subpart 37.104.] However, personal services are not always easy
to identify and, therefore, may inadvertently slip into a contract. Also, contracts that begin as
services contracts sometimes “slide” over into the personal services category. To avoid these
problems, project officers need to understand the definition of personal services contracts and be
alert when administering non-personal services contracts to prevent contract deliverables from
becoming personal services.

Personal services contracts basically occur when a contractor’s employee is supervised by the
Office of Inspector General as though that individual is a government employee. An example of
such services is contract auditors who fall under the direct supervision and control of Office of



                                                18

Inspector General management. Such control is evidenced by specifying duties, hours of work,
approval of absence, appraisals of performance, and disciplinary actions. Unless specifically
authorized by legislation, such contracts are illegal. Project officers should avoid acquisition of
services where the purpose of the services is to bypass pay limitations or competitive employment
procedures. Administrative and criminal sanctions for violation of this prohibition are severe (see
31 U.S.C. 1342 and 31 U.S.C. 1550).

Uncompensated Overtime. Some contractors may attempt to obtain the contract award by
paying professional employees a salary as opposed to hourly wages and then require the
employees to work inordinate numbers of hours to accomplish the job. Likewise, some
contractors under labor hour contracts may seek to work employees overtime without proper
compensation.

Federal regulation discourages contractors from making offers containing uncompensated
overtime. For labor hour contracts greater than the simplified acquisition threshold, insertion of
Federal Acquisition Regulation clause 52.237-10 will require contractors to divulge all such cases
as a part of their offer. Also, contracting officers must conduct a risk assessment as required by
Federal Acquisition Regulation Subpart 37.115-2(c), to assure that the use of uncompensated
overtime in labor hour contracts will not adversely affect the level of technical expertise required
to meet the contract requirements. This risk assessment must evaluate the impact of: (1)
unrealistically low labor rates, or other costs that may impact the quality of the products or
services; and (2) unbalanced distribution of uncompensated overtime among personnel with
differing skill or technical expertise.




                                                 19

                KEY PRE-SOLICITATION

                     DECISIONS


                                       Market Research
Know the Market. Market research identifies prospective contractors and the conditions for
doing business in a particular industry. Without this research, the Office of Inspector General may
miss out on the services of qualified contractors or may ask for non-standard services that are
impractical or excessively expensive. The goal of market research is to determine how and what
to buy and then obtain the best contractor(s) for the work needed. Market research may involve
something as simple as looking in the yellow pages, or conducting a comprehensive Internet
search. Available research tools are extensive, so consider requesting contracting personnel to
(1) recommend research techniques, (2) participate in initial industry contacts, and (3) participate
as part of the team developing the final requirements document for the acquisition.

Historical Research. One of the first steps in market research is to see if the particular services
have been previously acquired. If so, obtain a copy of the earlier contract file including the
statement of work as a guide for preparing the statement of work for the new acquisition. Do not
orient the statement of work to a particular contractor. Thorough market research often identifies
a wide variety of qualified contractors in the market.

Finding New Contractors and Work Techniques. Market research is used in part to compare
the acquisition need to the capability of contractors in the market. In contracting areas where
sources may be limited, such as performance of actuarial services, market research may identify
additional qualified companies. If appropriate, but especially on new contractual requirements,
consider issuance of a Request for Information (RFI). Send the request to key Offices of
Inspector General asking if they have previously acquired such services. In addition, consider
using pre-solicitation meetings with potential contractors to:

       <    get information on what is available in the market; and
       <    gather information for preparation of the statement of work and other aspects of the
            solicitation.

It is best to keep the contracting officer as the contact point with prospective contractors after the
pre-solicitation meeting, but this is especially important after issuance of the solicitation. This
practice helps protect the project officer from any legitimate claim of impartiality.


                                   Tips for market research
       <	 Expand the source selection list to include contractors known for their
          performance on the type of work needed.

       <	 Contractors are an extension of Offices of Inspector General staff. They are
          subject matter experts and a bargain when compared to use of employees
          working part-time in a technical area. Understanding your contractual needs is
          important in surveying the market, in conveying those needs to the right group
          of contractors, and making sure contractors have a thorough understanding of
          those needs.




                                                 20

Documenting Results. Market research is critical to successful competitive and commercial item
procurement. Consistent with this thought, Federal Acquisition Regulation Section 10.002(e)
states that agencies should document the results of market research in a manner appropriate to the
size and complexity of the acquisition. Documentation should demonstrate a reasonable effort
was made to identify potential sources and services. The record should address the seven
elements identified in Federal Acquisition Regulation Section 10.002(b)(1) and should identify the
initial statement of need, sources contacted or referred to, an appropriate discussion of why a
commercial service will or will not meet the need, and the final statement of work. If a sole
source decision is made (requiring a Justification for Other than Full and Open Competition), the
documentation must clearly validate that only one source can provide the required services.


                                 Methods of Contracting
Various Methods Available. An important step prior to preparation of the solicitation is to
determine the method of acquisition. The project and contracting officers working together will
make this decision. The three most likely open market possibilities used by the Offices of
Inspector General are the following. (1) “Micro-purchase” is normally used for acquiring services
up to $2,500. (2) The “Simplified Acquisition Procedure” (SAP) normally is used for contracts
above $2,500 but not greater than $100K. If the services are considered to be of a commercial
nature, the simplified-method contract limit increases to $5 million. [Both of these methods are
described in the Federal Acquisition Regulation Part 13.] (3) Competitive proposals (also known
as the negotiated method) normally is used to acquire non-commercial services above $100K or
for commercial services above $5 million. These three methods comprise all of the methods likely
to be used by the Offices of Inspector General for the acquisition of advisory and assistance
services. Acquisition of architect-engineering and some construction needs require special
methods (see Federal Acquisition Regulation Parts 36 and 37), but special methods are not
normally needed for the acquisition of Offices of Inspector General services. Sealed bids is
another method of contracting (see Federal Acquisition Regulation Part 14). However, it would
be rare to use sealed bids for acquiring advisory and assistance services. Before using any of
these methods for open market acquisitions it is important to consider use of General Service
Administration Federal Supply Schedules and other more expedient sources as discussed below.
The Federal Supply Schedule program contains contracts for both supplies and services.


                                    Tips on contract methods

       <	 Before using any method for contracting for services, determine that agency
          personnel are not available to perform the work. [See Federal Acquisition
          Regulation Subparts 7.103(o) and 37.204.]

       <	 The simplified acquisition method is easier to use than the negotiated method.
          It is faster, less expensive, and reduces the chance of a sustainable protest. Its
          legal requirements are far less stringent.




                                                 21

Required Sources. Requestors should ensure that another Government organization cannot
provide the needed services, and that existing scientific, technical, or management data cannot
fulfill the requirement. [See Federal Acquisition Regulation Part 8.]

General Service Administration Federal Supply Schedules. Project officers should consider
General Services Administration “Schedule” sources for acquisition of advisory and assistance
services. Schedule contracts, including those exceeding the simplified threshold of $100K can be
made simply and quickly through evaluation of a limited number of contractors listed on this
schedule. [See Federal Acquisition Regulation Subpart 8.4.]

Contracting officers may seek competitive quotes from schedule contractors and may request
price reductions, such as, where the quantity of an individual order clearly indicates the potential
for obtaining a reduced price. Schedule contractors can give "spot reductions" to individual
agencies without passing them onto the entire Government under a schedule order.

The Small Business Administration’s 8(a) Program. Do not forget the value of 8(a)
contractors and other small businesses. There are many well qualified 8(a) contractors.
However, do not randomly select an 8(a) contractor just to meet an agency goal. Use an 8(a)
contractor only if they are qualified to perform the tasks specified in the contract. The 8(a)
procedure is not used for micro purchases and is seldom used for acquisitions under $25K
because the increased administrative burdens outweigh the advantages of reduced competition.
The 8(a) process is considered most attractive for simplified acquisitions above $25K and for
competitive proposals because competition is limited and award time is speeded up.

Purchase Cards. Purchase cards may be used to obtain advisory and assistance services under
the micro-purchase threshold of $2,500 as long as the cost is known to be fair and reasonable. Be
sure a written determination of a fair and reasonable price is placed into the contract file.
Contracting officers frequently are authorized to use purchase cards for simplified acquisition
purchases.

Consider Alternate Methods to Obtain Needed Expertise. Contracts are not the only way to
get outside expertise. For example, some training can be obtained by use of a “training form” in
lieu of a formal contract. A training form is issued to a contractor which allows an individual
Office of Inspector General employee, or group of employees, to attend a training session offered
by expert instructors. No other contract document is needed.


                                   Commercial Services
Commercial Nature of Acquisitions. The history of what constitutes an advisory and assistance
commercial service contract is not clear. The Federal Acquisition Regulation requires that such
services have an established “ . . . market price for a specific service performed.” [See Federal
Acquisition Regulation Subpart 2.101.] Routine services performed at a fixed hourly rate
established by the market, or by catalogue prices, most likely will meet the definition of a
commercial service. For example, requirements over $100K for performance auditing may well
meet this definition when the prices are established by the market.




                                                 22

Commercial Services and the Simplified Acquisition Method. In selecting the method for
obtaining services from the open market, it will be necessary to determine if the acquisition is a
commercial or non-commercial service. Basically, if the service is commercially available, then
the simplified acquisition method can be used up to $5 million. If the service is non-commercial,
then the simplified acquisition method is capped at $100K (in accordance with Part 13 of the
Federal Acquisition Regulation). There are many advantages to using the simplified method, but
it is important to note one particular disadvantage involving modifications. For example,
commercial contracts generally preclude unilateral modification, which means that a contractor
must agree to any contract modifications. In some cases, this could make it more difficult to
direct changes in the contract. If the contract is large and apt to require many changes, discuss
these non-commercial services aspect of the acquisition with the contracting officer.


                                     Types of Contracts
Sole Source. As a general rule, do not write initial sole source contracts. Although the Federal
Acquisition Regulation permits sole source awards under a variety of conditions, competition is at
the heart and spirit of Federal contracting. Furthermore, from a purely practical standpoint,
preparing the justification and approvals required for a sole source acquisition frequently takes
longer than just competing the buy in the first place. The result is that you may wind up making a
late buy later by trying to justify a sole source buy. Sole source follow-on acquisitions require
valid written justifications and, therefore, are rare. Making many awards to the same contractor
could appear to other contractors as favoritism and is likely to result in less competition over
time. Do not automatically assume the incumbent contractor is the best qualified for a new
contract. There are many quality contractors in the marketplace.

Firm-Fixed-Price and Labor-Hour Contracts. Advisory and assistance contracts generally will
be priced in one of two ways: (1) payment by the hour, or (2) a lump sum payment for the entire
job or task. Payment by the hour is most common among Offices of Inspector General using
services contracts. Either way is effective, but an added advantage of using hourly rates is it may
allow for use of simplified acquisition procedures up to $5 million. When there is a need for the
acquisition of the same task over and over again, it is wise to consider a task order contract.
Appendix C contains a sample clause for use with task order contracts.


                                      Tip on contract pricing

       Make it clear in the original contract that if it is modified, the original rates will be
       maintained. Obtain the rates for all optional years at the time of initial award. If
       this isn’t done, the contractor could raise prices, resulting in either having to pay
       these increased costs or finding another contractor.


Multiple or Task Order Requirements. Consider establishing indefinite-delivery-indefinite-
quantity task order contracts for quick delivery of services. This type of contract offers the




                                                  23

advantage of allowing for the repeated use of the same contractor. However, establishment of
indefinite-delivery-indefinite-quantity contracts should follow and not precede the review of:

       <    General Services Administration Schedule contractors,

       <    other agencies indefinite-delivery-indefinite-quantity contracts which may be used,

       <    government-wide-area-contracts for information technology services, and 

       <    government-wide multiple award contracts for advisory and assistance and other

            services.

Two additional advantages of using General Services Administration Schedules are that (1) rates
are negotiable on larger contracts, and (2) Blanket Purchase Agreements with the General
Services Administration vendors can be set up if appropriate for multiple small services.

There are some other conditions of concern when using task order and multiple award contracts.
The Offices of Inspector General, not the contractor, should estimate the hours needed for a per
hour task order. If the hours can’t be estimated, then perform additional research to identify the
scope of work needed. Use historical data as an aid in making the estimate. For example, a lot of
historical data is available on audit costs. Consider changes that make this contract different from
past contracts, and allow for contractor time to become acquainted with new work. In the
solicitation, provide contractors with the estimated hours needed; otherwise, the offers will vary
widely and the time and effort required to award the contract will be unnecessarily increased.
Once a contractor’s proposal is received, then discussions can take place if needed on the hours
required to complete a task. Avoid having too many contractors for the work available when
making multiple awards. When contractors routinely do not get task orders, they lose interest in
the agency and the contract.

If the contract is under $100K, avoid multiple awards. This practice is encouraged by the Federal
Acquisition Regulation. Working with too many small contractors at one time can lead to
inconsistent performance. If the contract is over $100K consider the use of multiple awards.


                                 Tip on multiple or task order contracts

       Some Offices of Inspector General have multiple award contracts available for use by
       other OIGs. These contracting sources may be considered before choosing to go open
       market.


Finally, on task order contracts, the value of the total contract should correspond with expected
contract use. It is not fair to the contracting community and is a violation of regulation to solicit
for a larger dollar amount of services than is realistically planned for use. Additionally, an idle or
unused amount likely will cause the contractor to move key resources to other contracts.




                                                  24

Cost-Reimbursement Contracts. Cost-reimbursement contracts are appropriate for services
that can only be defined in general terms or for which the risk of performance is not reasonably
manageable. They provide for payment of all allowable costs up to a contract ceiling.
Performance-based service contracts encourage the use of fixed-price contracts and incentives to
encourage optimal performance. Nevertheless, there may be an occasion when a cost-
reimbursement contract is required. To the maximum extent practicable, performance-based
service contract methods should be used for cost-reimbursement contracts with incentives. [See
FAR 16.3 for a detailed description of cost contracts.]




                                               25

                     PREPARING THE

                   STATEMENT OF WORK


                                The Heart of the Contract

Writing Effective Work Statements. The statement of work is the heart of any contract. It
describes what the contractor is expected to do under the contract. It drives many other contract
actions including selection of quality evaluation factors and monitoring of contractor
performance. The following four points will help guide the preparation of effective statements of
work.

       <	   Contracting officers can be extremely helpful when preparing the statement of work.
            However, do not expect the contracting office to know or be able to communicate
            your contractual needs. Therefore, prepare the statement of work using an
            experienced staff member.

       <    Take time to write the statement of work carefully and review each draft thoroughly.

       <	   Define the contract needs clearly. Do not let a contractor build something from a
            general plan. Otherwise, the contractor may furnish what it thinks is needed rather
            than what is wanted.

       <	   Describe the total need of the contract, and avoid statements of work that are written
            too broadly. To do less will lead to a series of costly contract add-ons. Clarify when
            the contract is for a piece of a larger project. For example, if contracting separately
            for individual parts of a complete audit, which is common in the Offices of Inspector
            General, be sure that all parties understand clearly which part they are responsible for!
            Without this written understanding, contractors may claim part of the work is outside
            the scope of the task order or they may claim a predecessor firm should be required to
            do the work under an earlier task order. Consider reviewing prior contractor’s work
            papers when setting up such auditing contracts.

Learning Curves. Allow enough time for the contractor to effectively do the job. Otherwise, the
project officer will be trying to correct late performance, and this sort of interaction can quickly
lead to hard feelings. A new contractor frequently will require time to come up to speed
concerning knowledge about the agency and how to meet contractual requirements. Allow for
this in contracts. The “learning curve” works both ways, and there is much to be gained when
both parties (the Office of Inspector General and the contractor) like each other. In short, new
areas of contract work will contain areas of the “unknown.” Be prepared for this.

Technical Writing Involving Work Beyond the First Draft. Often the preparer of the
statement of work expects the contractor to prepare several drafts of technical writing, while the
contractor expects the first draft to be the only deliverable. Where appropriate, such as when the
contractor is conducting a study, specify in the contract that much of the work occurs after the


                                                26

first draft product. A lot of Offices of Inspector General work requires draft versions and
revisions of the contractor’s first documents. It is important that this requirement be expressed in
the contract. Otherwise, contractors will view the added work as a change in scope and will
expect and ask for additional funding. [See Appendix C for a sample clause which could be
placed in the contract’s statement of work regarding the issue of multiple drafts.]

Contractor’s Pride of Authorship. Often the Offices of Inspector General will contract with a
consultant or professional to offer an opinion, and the contract may call for the contractor to put
opinions in written form. Later, the contractor may be requested to make substantive changes to
the written product. In some cases, the contractor may exert their “pride of authorship” and not
want to make these changes. The language in Appendix C may be used in the statement of work
to help address this issue.

This guidance may not apply in the case of audits in which the professional opinion of the auditor
is the very object of the acquisition. That may also be the case with other acquisitions such as
some evaluations. Clearly, different circumstances will lead to different expectations about the
independence of the contractor. These expectations should be clarified before the contract is
awarded.


                 Performance-Based and Performance-Oriented

Two Different Approaches. There are two fundamental aspects to writing a statement of work
for the kinds of services most frequently used by Offices of the Inspector General. Both aspects
involve aspects and issues of performance.

       <    A performance-based Statement of Work; and
       <    A performance-oriented Statement of Work.

Performance-Based Statements of Work. The Offices of Inspector General should consider
use of performance-based statements of work to the maximum extent practicable and monitor
contractor performance during the life of the contract against performance criteria established in
the statement of work. It identifies the items and milestones during the contractor’s performance
that show how the contractor is doing.

A performance-based statement of work stresses monitoring and control of contractor
performance. The statement of work should contain a description of how and when the
contractor is performing satisfactorily. Without these provisions, it will be difficult or impossible
to hold a contractor to any quality standards. Statements of work for contracted advisory and
assistance services should be definitive and specific in regard to the tasks to be performed and the
deliverables. However, remember these statements cannot cover everything. Changes are apt to
occur, and there is no substitute for a helpful attitude between the contractor, the project officer,
and the contract officer.

The contract should contain items and time-lines for receipt of those items that will allow the
project officer to determine that the contractor’s work is of an acceptable level. Such checkpoint


                                                 27

items may be of a somewhat subjective nature, but it is difficult to reject work that is
unsatisfactory for subjective reasons. Therefore, strong consideration should be given to
including positive incentives in the contract that reward the contractor for quality work. This is in
contrast to placing penalties in the contract for less than quality work. Generally, when penalties
are used in advisory and assistance services contracts, the quality of work is too compromised to
be salvaged. For this reason, contracts with sanctions clauses are generally discouraged.
Including the Federal Acquisition Regulation clause 52.246-4 will allow the Office of Inspector
General to reject work that is not in compliance with the contract. However, this clause assumes
that the solicitation (which is incorporated into the contract) contains a description of what
constitutes acceptable work. Time of delivery is a standard quality factor, but it is hardly a valid
judge of the contractor’s performance.

Between the solicitation and the contractor’s proposal, be sure to specify the process to be
followed between the two parties to the contract, and provide a schedule of time frames for
completion of contract requirements. This time frame applies to the actions of both parties. If the
contractor must wait for Office of Inspector General staff to review products, then that should be
factored into the time schedule. The Office of Inspector General must then stick to its part of the
contract, since delays may allow the contractor to request additional payment.

Performance-Oriented Statements of Work. The statement of work should describe the
contract in terms of results required as opposed to specifically trying to tell the contractor what to
do. A performance-oriented statement of work describes the function or performance sought
from the contractors as opposed to giving them step-by-step guidance for performing the job. For
example, a performance-oriented statement of work might state that the Office of Inspector
General is seeking an audit in accordance with “yellow book” standards. By contrast, a
nonperformance statement of work might tell the contractor exactly how the “yellow book”
standards are to be applied. The statement of work needs to be precise about how the services
will be utilized, but it does not need to contain precision about how the contractor will do the
work. The Offices of Inspector General are encouraged to write performance-oriented statements
of work for services contracts. A performance-oriented and performance-based (discussed
above) approach to a statement of work go together very nicely and in no way are mutually
exclusive. In short, they involve two different objectives and are frequently incorporated into the
same statement of work.

A Sample Statement of Work. Appendix B contains a broad listing of typical topics and
divisions to consider when preparing any statement of work. In addition, since the statement of
work is of critical importance to contract success and is the direct responsibility of the project
officer, a sample is included in Appendix B. The sample is for analysis of financial reporting
processes. While it is safe to say that there is no such thing as a totally perfect statement of work,
the sample in Appendix B has the advantage of actually being used by an Office of Inspector
General. The users reported that it worked well. It contains key elements needed in a statement
of work and is both performance-based and performance-oriented. It is provided solely for
information purposes.




                                                 28

              PREPARING THE WRITTEN

                  SOLICITATION


                                      Contract Clauses

Standard and Special Contract Clauses. Primarily, it is the responsibility of the contracting
officer to insure that proper and effective clauses are included in the solicitation and contract.
However, there are a number of reasons for the project officer and contracting officer to discuss
clauses for inclusion. Therefore, the project officer should work closely with the contracting
officer to determine whether special contract clauses are appropriate or beneficial for a particular
situation. Some special clauses may be placed in the contract exclusively at the request of the
project officer, such as those sample clauses found in Appendix C. Standard pre-printed clauses
typically used in Federal contracts are placed in individual sections of a contract or can be
grouped together as determined by the contracting officer. However, input from the project
officer on location and content of these clauses is an important topic for discussion with the
contracting officer. It is important for both the project officer and the contracting officer to read
all contract clauses to understand the obligations of the contractor and the Office of Inspector
General.

It is important to identify the requirements for advisory and assistance services contracts early in
the contract process to facilitate discussion between the project and contracting officers about
useful clauses to be included in the solicitation. Specialized contract needs and the corresponding
contract clauses should be described in the statement of work drafted by the project officer.

Professional Services Over $500K -- Wage Busting Clause. Some contractors may attempt to
obtain contracts by lowering staffing costs. Some contractors hire employees as professionals,
who are not subject to hours worked laws, and then require them to work in excess of a standard
40 hours.

It is not in the best interest of the government to contract with individuals or entities who do not
adequately compensate their professional employees. [Refer to Prohibited Contracting Practices.]
For advisory and assistance services acquisitions expected to exceed $500K, insertion of Federal
Acquisition Regulation clause 52.222-46 will require an offeror to specify how they plan to
compensate their staff. Also, make sure that the “benchmark compensation amount” ($340,010
for the year 2000) is not exceeded for top executives’ compensation, as set by The Office of
Federal Procurement Policy.

This clause on wage busting, 52.222-46, is just one example of standard clauses that typically are
included in services contracts. A complete listing of such clauses is contained in the matrix
section of the Federal Acquisition Regulation. The section immediately below on the “key
personnel clause” is an example of a special clause that may be considered for inclusion but will
not be found in the Federal Acquisition Regulation. See your contracting officer to discuss these
and other contracting clauses.




                                                 29

Key Personnel Clause. Some contractors may identify key personnel when offering on a
contract and then attempt to replace those personnel with others, who may be less qualified, or
paid less, after a contract award. To avoid this practice and maintain greater control over the
qualifications of contractor personnel working on the contract, a clause such as the one found in
Appendix C on this topic may be included in the contract.


                                     Evaluation Factors

Experience and Price. Evaluation factors are used in selecting the winning contractor. In most
cases a contractor’s past experience in the type of work being acquired is apt to be one of the
qualities sought by the Office of Inspector General. In fact, past performance is a required factor,
with certain exceptions, in contracts over $100K. Evaluation factors should be used that closely
relate to each contract. As a general rule, fewer factors are better than more factors. Fewer
factors are easier to administer in the evaluation and award process, while more factors tend to
dilute the importance of each factor. While there are no standard evaluation factors, some
commonly used ones are listed below.

Evaluation Factors

       <    price

       <    technical capability and other technical factors

       <    past performance

       <    business factors (e.g., contractor’s prestige and reputation) and

       <    note: sometimes the non-price factors collectively are referred to as “quality factors”


Price is always required as a factor. However, give strong consideration to technical factors in
relation to price when setting up the evaluation factors in the solicitation. The solicitation will
state the relationship between price and other factors. If the contracting need is routine, then
price is more important. If the work is highly technical, complex, etc., then technical capability is
more important. As an example, consider giving technical factors a 60/40 or 70/30 weighting
relative to price.

Carefully select quality factors for contractor evaluation that reflect the qualities sought in a
contractor. Also, to the maximum extent possible, assign added weight to contractor capability
when establishing evaluation criteria for advisory and assistance services contracts, including the
use of past performance as an evaluation factor. Business aspects may also be considered as
evaluation factors, such as the contractor’s prestige and reputation. The following are suggested
quality factors, but the actual solicitation should contain fewer as opposed to more factors for
ease of administration and to give proper weight to key factors.

Suggested Quantifiable Measures of Quality.

       <	   Experience. The extent to which contractor demonstrates past experience in contract
            requirements such as prior testimony, prior contracts, specialized training, etc.




                                                 30

      <	  Staffing profiles. The extent to which contractor’s proposed staffing seems to meet
          staffing levels believed necessary by Office of Inspector General. Also, check to be
          sure that the abilities of key staff seem consonant with the contractor’s experience. A
          contractor’s staff must be experienced in the actual area of your contract, and the
          staff proposed must be used in the final contract. (See the key personnel clause in
        Appendix C.)

      <	   Progress schedules. The extent to which contractor’s proposed schedules and
           milestones for each stage of the project meet Office of Inspector General
           expectations.

      <	   Permitted changes and error rates. For example, the contractor might be designing a
           system or approach to problems that (especially in the later stages of the proposal life-
           cycle) would require a significant number of changes to the system. Likewise, the
           number of errors in design which are permitted can be quantified at various stages of
           development. This kind of evaluation factor also is an excellent way to evaluate
           performance.

      <	   Project design characteristics. The number of design changes needed because
           contractor misunderstood or ignored Office of Inspector General’s requirements.

Suggested Qualitative Measures of Quality.

      <	   Understanding of the project. The extent to which contractor indicates an
           understanding of project and constraints.

      <	   Creativity. The extent to which contractor’s proposal as a whole creatively
           approaches the job at hand.

      <	   Ability to design. Especially the extent to which contractor is able to design and
           generate selected critical components of the project.

      <	   Quality of sample work. The extent to which a review of sample work, for example a
           written project report, reflects the quality of expertise required by the Office of
           Inspector General.

      <	   Creativity in sample work. When a sample is required, the extent to which
           contractor’s sample creatively approaches the job at hand.

      <	   Correctness and accuracy. The extent to which contractor’s proposal satisfies
           contract specifications and Office of Inspector General’s requirements.

      <	   Reliability. The extent to which a contractor’s proposal actually performs in
           comparison to its claimed functions.

      <	   Security and integrity. Extent and effectiveness of controls to prevent unauthorized
           access to sensitive data.


                                               31

<	   Usability of products produced. The effort required to learn, operate, and otherwise
     use the contractor’s proposal.

<	   Maintainability of systems produced. The effort required to detect, locate, and
     correct errors in the contractor’s proposal.

<	   Flexibility. The effort required to modify contractor’s proposal if future changes are
     needed.


           Tip for writing effective evaluation factors - one example

Regarding technical evaluation factors on a large multimillion dollar contract, one
Office of Inspector General has successfully used an incentive for teaming with
small businesses as an evaluation factor. They held a pre-proposal conference to
explain the acquisition and then encouraged large and small contractors to meet
with each other to discuss teaming arrangements. This process worked well and
the Office of Inspector General was very satisfied with the contractor’s
performance after the award. In this acquisition, they made multiple awards to
four different contractors.




                                         32

                      A “BEST VALUE” APPROACH


                                 Selecting the Winner(s)
The Preferred Approach. Prior to issuance of the solicitation, a decision needs to be made
regarding the criteria for determining the winning contractor. There are a variety of ways to make
this determination. For services contracts, generally the preferred way is known as the “best
value” approach. This approach uses contract price and one or more quality or technical
evaluation factors to determine the winning contractor.

Project officers have many responsibilities for assessing best value. S/he generally is responsible
for preparing evaluation and selection criteria for competitive awards that result in “best value”
acquisitions. Further, they should thoroughly document the reasons for selecting the
contractor(s) at the time of the award, and not after the fact, to meet regulatory requirements and
to address a contract award protest. [See the Federal Acquisition Regulation Subparts 13.106-3
and 15.308 for guidance in documenting the source selection decision.]

Value More Important Than Cost. Using the best value approach means acknowledging that
low price is not necessarily the best deal. Therefore, the importance of price in relation to other
factors likely will vary with each solicitation. However, be reasonable about cost. The old adage
that you get what you pay for is not bad advice. There are a wide range of prices for the same
level of work and a price should be paid that represents the “best value” for the organization.
Acquiring the services of the lowest priced contractor without regard to the contractor’s
capability most likely will result in substandard work. In addition, such contractors frequently ask
for more money to complete contract tasks. The government strongly encourages the award of
“best value” contracts. Therefore, it is legal to pay more for a contract if it results in a better
overall value for the Offices of Inspector General. Estimate the costs of service contracts by
analyzing the effort and associated costs for the contracted tasks. Most contracting officers have
extensive experience in structuring effective “best value” solicitations. In addition, most agencies
have pricing experts to help with the more difficult estimating jobs.


                             Tip for selecting a qualified contractor

       Do not accept a questionable contractor because of time or cost constraints.
       There are interim contracting steps that can be taken to fill immediate needs while
       an acceptable contractor is obtained. For example, a series of smaller contracts
       can be issued using the simplified acquisition method until the larger contract is
       awarded. However, work must be underway on the larger contract while the
       series of smaller contracts are being used in order to avoid an illegal split of
       contractual needs. Your contracting officer will have other suggestions relating to
       specific circumstances of your immediate situation.




                                                33

Limitations When Evaluating Contractor Proposals. Office of Inspector General personnel
will normally be used to evaluate contractor proposals. If, for any reason, such staff is not
available or qualified, the use of contractors to evaluate other contractor offers require special
justification in accordance with Federal Acquisition Regulation Subparts 37.203 and 37.204.
Office of Inspector General employees should not evaluate proposals from contractors with whom
they have private business dealings or close social relationships, or be in any position to influence
the award of the contract under such circumstances. Such a relationship will result in the
appearance of a conflict of interest and will increase the likelihood of improper disclosure of
procurement sensitive information during the pre-award period.


                                      Contract Prestige

Prestige Associated with Office of Inspector General Work. There is no doubt that companies
sometimes have “loss leaders” in their pricing structure. However, it is rare that a company wants
to work for an Office of Inspector General at a loss in order to enhance the companies marketing
“prestige.” So do not award a contract strictly on low price because of the belief that the
company is providing a bargain price now in order to improve their chances for obtaining
additional, more profitable contracts later. This philosophy generally fosters poor performance.
When contractors are losing money on a contract, or can make more money on another contract,
they generally put their best efforts and staff into the most profitable area. For example, a
contractor might use less senior staff time in a low-priced contract, resulting in substandard
quality and unmet time lines. Note: negotiating a contract that results in lower payments to a
contractor than what s/he could obtain in the commercial arena is not necessarily a sign of good
business skills or of a good value for the government.


                                     Tip on contract ceilings

       Set the total contract “not to exceed” amount of task order contracts at an
       expected use level. It is a violation of the Federal Acquisition Regulation to set
       the level at an unrealistic amount as a hedge against large unexpected contract
       needs!




                                        Business Size

Business Size and Quality. Selecting a quality contractor is a key aspect of acquiring quality
advisory and assistance services. The size of a contractor’s business is not necessarily an
indicator of how they will perform. In fact, regulations require all federal contracts be set-aside
for small businesses if there are two or more that can perform the terms of the contract at a fair
and reasonable price. Additionally, regulations require agencies to consider dividing large
contracts into smaller parcels whenever feasible in order to provide greater opportunities to small
businesses. For example, multiple award contracts allow both small and large contractors to



                                                 34

receive an award under the same contract. Task orders may then be given to either large or small
contractors depending upon need.

There are times when business size could be a quality factor. For example, there are some
specialized areas of Offices of Inspector General work where large firms are needed. Do not
contract with a small business and then find out it lacks the resources to complete the contract
tasks. If a large business is required, for example to conduct specialized audits, past market
research shows that there are only five or six large accounting firms performing audit contracts.
However, the size of the firm alone does not necessarily correspond to quality contractor
performance.

Small Business Goals. All agencies have goals for awarding contracts to small and various other
categories of disadvantaged businesses. However, contract awards do not always have to go to
small businesses. Even though small businesses may perform as well or better than large firms,
consider each individual contract requirement before deciding whether a large or a small
contractor can meet the scope of work.




                                                35

     QUALITY ASSURANCE THROUGH

      CONTRACT ADMINISTRATION


                                    Before Work Begins

Planning for Contract Administration. Contract administration begins in the planning stage
with the development of a clear concise performance-based statement of work. To the extent
necessary, it continues with preparation of an administration plan that effectively measures the
contractor’s performance. Whether to prepare a written plan and, if so, how thoroughly to write
out the plan is a unique element of each contract.

As appropriate, Offices of Inspector General, in conjunction with the contracting officer, are
encouraged to prepare a written plan for contract administration of advisory and assistance
services contracts and share a copy of that plan with contractors during a pre-work conference.
However, small contracts or simple tasks may not require a written plan.

Record of Conversations. Contractors sometimes perform beyond the requirements of the
contract and then request additional payments. Therefore, after an award, consider keeping a
written record of conversations with a contractor in order to disprove a contractor’s claim of
expensive contract additions. This advice applies both before and after work starts.

Contract Start-up. Getting the contractor off to a good start is a key step in securing effective
overall performance. The following three points will aid in the start-up process.

       <	   Use pre-work meetings with new contractors to make sure the contractor understands
            precisely what is needed under the contract. This advice applies to individual task
            orders as well as to lump sum awards. Otherwise, the contractor may be doing work
            differently from what is expected.

       <	   Once the contract is awarded, begin work right away. The contracting community
            loses interest if the work is not efficiently scheduled, and may conclude they do not
            want to do business with this Office of Inspector General in the future. Also, if the
            contractor’s staff is not being used effectively, they often assign their people to other
            contracts, thereby delaying completion of the work. The contractor’s replacement of
            experienced staff with new people starts the learning processes all over again. The
            contractor must be used effectively and efficiently in order to enforce the key
            personnel clause!

       <	   If a contractor is being used to perform audit work, meet with the auditee ahead of
            time. It is embarrassing to have the contractor show up at the audit site when the
            auditee is unaware of the audit or the documentation review requirements. In
            addition to being embarrassing, such lapses waste money. The auditee needs to
            designate staff to work with the contractor, including obtaining a review site and
            having the needed records available.


                                                 36

                          Monitoring the Contractor’s Work

Quality Control. Using all appropriate contracting clauses will not guarantee quality
performance. At a minimum, the contractor should be monitored and evaluated, and feedback
provided both in terms of recognition and noting the areas requiring improvement. The following
methods are effective in encouraging quality contractor performance.

       <	   Correct performance problems early and involve the contracting officer quickly to
            resolve performance problems. Some contractors react more quickly to the
            contracting officer than they do to the project staff. Unattended problems can
            become the normal level of performance.

       <	   Read the contract before using it, including the clauses. Understand it. Make sure
            the contractor adheres to basics of the contract. The contractor will normally read
            their copy of the contract and know their rights. Project officers can’t effectively
            represent the Office of Inspector General unless they know all the terms and
            conditions of the contract. Performance problems must be identified by the project
            officer and brought to the attention of the contracting officer if they cannot be
            resolved. Contracting officers generally get involved in performance problems only if
            they are alerted to problems.

       <	   Monitor the contractor after award. Stay in touch with the work as it happens. Lack
            of communication with the contractor is the biggest single cause of contract failure,
            especially when s/he is working in an agency on a daily basis.

       <	   Consider obtaining a work plan from the contractor. Review and approve the plan
            prior to authorizing the contractor to start work. This is especially helpful on
            complex projects. If a work plan is to be requested, plan for it in advance and include
            it in the contract’s statement of work to avoid incurring additional charges.

       <	   The first work products are a key problem resolution point, especially for audit
            contracts. Consider being on-site for early audit work in large, complex, or critical
            audits. This does not mean full-time oversight, but rather on-site monitoring for a
            week or so.

       <	   Make contractors adhere to contract time frames. Some contractors feel that being
            behind schedule is not money lost. However, if the contract is terminated because of
            untimely work, it is expensive for all parties.

       <	   Do not accept unresponsive contractors. There are plenty of contractors available
            who will perform quality work and there are ways to avoid unresponsive contractors
            and move to responsive ones. For example, if multiple awards have been made, it is
            not mandatory to continue using every contractor. Or, if an indefinite-quantity type
            contract has been awarded, it is not mandatory to use that contractor beyond the
            minimum amount required in the contract. There are other more drastic steps a
            contracting officer may take with a nonperforming contractor, but the difficulties


                                                37

            involved in correcting poor performance reinforce the importance of selecting a good
            contractor in the first place.

       <	   Do not allow contractors to change project managers on a frequent basis. The key
            personnel clause is helpful in this regard. [See Appendix C.]

Unsatisfactory Performance. It is difficult to describe what constitutes good contract
performance for advisory and assistance services. Therefore, careful thought must be given when
describing what makes a contractor’s work acceptable and exceptional. Furthermore, even a
quality contractor can provide an unacceptable product if their work is not monitored and
periodically reviewed. Contractors who do not perform should be dropped from further
consideration. The contracting officer knows how to do this and what is needed to document less
than fully satisfactory performance. When multiple awards are made for task order contracts, the
contracting officer knows how to advise a poor performing contractor of the reasons that they
may not be getting additional orders. Recipients of contracted services should perform
documented evaluations of contractor performance upon completion of the contract.


                    Tips for avoiding poor contractor performance

       <	 Document time spent in monitoring contractors because it may be indicative of
          performance issues.

       <	 Do not let contractors come in and run the Office of Inspector General’s
          business. Knowing what the contractor is supposed to do, and the specifics of
          the contract, should enable effective monitoring of the contractor’s
          performance.

       <	 Request a briefing from the contracting officer (prior to using the contract) on
          how the contract should work. Each contract has its own peculiarities.
          Without this knowledge, there is a risk of not using the contract to its maximum
          effectiveness and of encouraging the contractor to tell you how the work will
          proceed.


Regarding future use of contractors who do not perform well, consideration should be given to
having the project officer rate contractors quarterly on active tasks (the Office of Federal
Procurement Policy has suggested that evaluation include contractor’s technical performance,
management performance, and customer satisfaction). Such reports are not a substitute for
promptly communicating potential and actual contractor performance problems to the contracting
officer for corrective action. Remember, the contracting officer’s success in resolving
performance problems depends upon the active involvement of the project staff. Critical
indicators of poor contractor performance include cost overruns and delays in receiving contract
deliverables. Keep all negative performance documentation in the contract file so other




                                               38

contracting officers can review the information when a new contract is awarded. Such
information assists the contracting officer in identifying and maintaining quality contractors.

Contractor Requests More Time to Complete the Task Order. If a contractor requests more
hours under an hourly task order type contract, make sure the justification for the request is well
documented. This discourages contractors from padding the contract to obtain extra money.


                                         Modifications

Prohibitions When Modifying Contracts. A contract may be modified without competition to
add additional work when the additional work is within the scope of the original contract.
However, new work outside the original scope may not be added to increase the dollar amount
without following competitive procedures. In such cases, additional new work must be competed
or a preparation of formal justification for not competing is needed. Competition is the
watchword for awarding all contract dollars. It is possible, however, to place options in contracts
to either increase the amount of work or the length of the contract. These options must be
included in the contract at the time it is signed.

Unauthorized Contract Modifications. The contracting officer is empowered to legally modify
a contract. However, discussions between the project staff and the contractor can sometimes lead
to unauthorized and therefore illegal contract modifications. The following points will help guard
against such changes.

       <	   A project officer should not make changes in the basic terms of the contract. Such
            changes are unauthorized and the resulting costs could legally become the personal
            responsibility of the project officer for payment. [See the Federal Acquisition
            Regulation Subpart 4.101 and refer to the Anti-deficiency Act and related legal
            decisions.]

       <	   To avoid an inadvertent change in contract terms, make sure the contractor agrees
            that any discussions do not constitute a change. Keep written notes of the
            conversation and of the contractor’s acknowledgment that no change in the contract’s
            level of effort has occurred.

       <	   Be familiar with purpose and use of contract options. Options often are available to
            either extend the length of the contract or the amount of work to be performed.
            Exercising options requires a formal modification to the contract. Without such
            understanding, option clauses may be misapplied.

       <	   Never meet with a contractor to discuss substantive non-technical contractual issues
            without the contracting officer being present. This will help avoid over commitments.

       <	   Do not commit for more work without involving the contracting officer in preparing a
            modification to cover the new work. There’s a tendency for some contracting
            officer’s technical representatives and project officers to tell contractors it is okay to
            do something when it is not authorized under the contract’s scope of work. Such

                                                 39

            unauthorized commitments will cause the contracting officer’s technical
            representative and the project officer to lose credibility with the contractor.


                                 Tip for avoiding excessive costs

       Do not call the contractor in for “10,000 meetings” as this increases contract costs.


Unauthorized Supervision of Contractor Staff. Do not attempt to supervise the contractor’s
staff. Their supervision is paid for by the contract. Attempts at supervision may quickly lead to
unauthorized changes in contract scope. In addition, such supervision is contrary to regulation
because it creates a personal services contract (refer to Prohibited Contracting Actions section of
this guide).


                                   Funds and Payments

Common Contract Payment Problems. The following suggestions to prevent payment
problems are commonly overlooked.

       <	   De-obligate unused contract funds where appropriate to avoid a lapse of funds
            through that particular contract.

       <	   Numerous small bills can be a problem both in terms of time needed to make
            payments and in record keeping. Consider use of the purchase card as a payment
            vehicle as it also serves as a record of payments to the contractor. Convenience
            checks may be used to pay small contractors who do not accept purchase cards.

       <	   Proper payment requires teamwork between program and contracting offices. Ensure
            that all contractor payments pass through the project office for certification that work
            has been completed and payment is proper. Ensure that all contractor payments pass
            through the contracting officer who then authorizes the finance office to make
            payment. Effective contracting and program officers monitor all payments under a
            contract. Payment office records are sometimes surprisingly incorrect. The contract
            file or program office file are often used as the official source to settle payment
            discrepancies.

Proper Payment. Contractors do not always invoice correctly! On hourly contracts, make sure
the payment does not exceed the hours worked. Do not pay too much for too little. Verify that
the hours billed correlate with the amount of work completed before authorizing payment through
the contracting officer.




                                                 40

                                                                            APPENDIX A




                        Resources for Further Reading
< Federal Acquisition Regulation Part 37 “Service Contracting”

<	 Federal Acquisition Regulation Subpart 9.5 “Organizational and Consultant Conflicts of
   Interest”

<	 Federal Acquisition Regulation Subpart 16.5 -- “Statutory and Regulatory Requirements for
   Use of Task Order Contracting for Services”

<	 Office of Management and Budget Circular A-11 and agency regulations -- especially
   regarding the statutory and regulatory definition of advisory and assistance services

< Office of Management and Budget Circular A-76 -- on contracting out policies

<	 Office of Federal Procurement Policy, Policy Letter 92-1 -- “Inherently Governmental
   Functions.”

< Office of Management and Budget’s:
      A Guide to Best Practices for Performance-Based Service Contracting
      A Guide to Best Practices for Contract Administration
      Best Practices for Past Performance
      Best Practices for Multiple Award Task and Delivery Order Contracting

<	 “Federal Agency Procurement of Audit Services” available from The Government Printing
   Office

<	 “Review of Independent Public Accounting Work” available from The Government Printing
   Office




                                               41

                                                                              APPENDIX B




                          The Statement of Work

                   for Advisory and Assistance Services


                                       Sample Outline

The exact content of any statement of work will of course be dictated by individual circumstances.
The following contains a listing of typical sections in a statement of work, and you should feel
free to use those that apply and disregard those that are not necessary. Seek to obtain a historical
perspective on any given statement of work from the agency files and if necessary from other
agency files. Note that all or part of the below sections may be deferred to each individual task
order if appropriate.

< Section 1 -- Scope
      A general overview of the objectives and the desired results

< Section 2 -- Background
      A general description of technical considerations

< Section 3 -- Applicable Documents
      All the known documents and referenced material the contractor will require to
      accomplish the tasks

< Section 4 -- Tasks
      All the specific tasks, or steps, the contractor must perform in order to provide the end
      item, deliverable, or service

< Section 5 -- Contract Deliverables
      A precise statement of what the contractor is to deliver at specified points in time as work
      progresses, and a statement of what is to be delivered, to include details concerning the
      type, form, media, and quantity of the deliverable

< Section 6 -- Government Furnished Facilities and Services
      A list of all property and services that the Office of Inspector General will make available
      to the contractor for use during performance of the contract

< Section 7 -- Contractor Furnished Property and Services
      A listing of the property and services the contractor will furnish to perform the contract




                                                42

< Section 8 -- Acceptance and Inspection
      A description on how each deliverable listed in Section 5 of the statement of work is to be
      received, inspected, tested, or verified by the contracting officer’s technical representative
      and the time period for acceptance

< Section 9 -- Place of Contract Performance
      A statement of where the work is to be performed or the place of delivery

< Section 10 -- Task Completion date
      A statement concerning the period of performance for each deliverable end item and the
      delivery schedule

< Section 11 -- Place of Inspection and Acceptance of Deliverables
      A statement where each deliverable is to be shipped, tested, inspected, accepted, installed,
      and who will receive, test, inspect, or accept it

< Section 12 -- Security Requirements
      A description of the security issues that impact or are required for the contractor
      (including subcontractors) in the performance of work

< Enclosures to the Statement of Work

The following documents are attached at the end of the statement of work or may be placed in
Section J of the contract:

       <    Attachments (Background Information);
       <    Appendices (Specifications and Requirements);
       <    Schedules (Delivery or Period of Performance); and
       <    Exhibits (miscellaneous material).




                                                 43

                            Sample Statement of Work

      DELIVERY ORDER [insert #] FOR CONSULTATION, ANALYSIS AND

     REPROGRAMMING OF FINANCIAL REPORTING PROCESSES WITHIN

          THE PAYMENT MANAGEMENT SYSTEM APPLICATION

                                  of the

                DIVISION OF PAYMENT MANAGEMENT


I.   STATEMENT OF WORK

     This Delivery Order is to assist the Division of Payment Management (DPM) in identifying
     and implementing corrective action on processes, systems and controls for improving
     financial reporting processes of the Payment Management System application (PMS).
     Financial reports produced by PMS impact the financial statement data of all Health and
     Human Services (HHS) reporting divisions (OPDIVs) as well as the overall financial
     statements of the Department itself. Erroneous or unreliable data generated by PMS
     could negatively effect the HHS financial statement audits for the fiscal year (FY) ended
     September 30, 1998.

     A. BACKGROUND

     The Division of Payment Management (DPM) is a fiscal intermediary control point
     between awarding agencies and recipients of grants and contracts. Using the PMS
     application, DPM (1) disburses Federal funds to academic institutions, research
     organizations, and state and local governments, (2) transmits recipient disbursement data
     back to awarding agencies, and (3) manages cash advances to recipients. Annually, PMS
     processes over 200,000 transactions totaling $170 billion for 44 agencies. PMS is a large,
     COBOL based application that utilizes the IBM information Management System (IMS).
     Both the IMS data and communications database management services are used by PMS.
     PMS operates on a mainframe computer located at the National Institutes of Health,
     Division of Computer Research and Technology (NIH/DCRT) data center. The
     application is large and complex. It consists of approximately 760 programs, 500,000
     lines of code, 24 databases containing 2,100 data elements, and on-line processing that
     utilizes approximately 250 unique screens. PMS is a mature application that has existed
     for over 20 years.

     The Government Management Reform Act (GMRA) expanded the CFO Act of 1990 to
     require the issuance of audited financial statements by HHS and other agencies. GMRA
     also requires the preparation of annual government-wide consolidated financial statements
     of the U.S. Government. The General Accounting Office (GAO) is responsible for
     auditing those statements. The DPM PMS application is a major source for the data used
     in the compilation of the OPDIV and HHS-wide financial statements required by GMRA.




                                             44

B. OBJECTIVES

The objectives of this delivery order are to:

1. perform an analysis of the two financial reporting processes:

       a) the grant accrual process that calculates grant expense accrual amounts and
       produces accrual transactions and supporting reports used by the HHS OPDIV’s
       at the close of each fiscal year;

       b) the Monthly Reconciliation Report produced by DPM/PMS and used by the
       HHS OPDIV’s to reconcile monthly and annual changes to U.S. Treasury
       appropriations;

2. fully document the resulting systems in a manner that provides sufficient support for the
PMS SAS 70 reviews and HHS OPDIV financial statement audits.

C. SCOPE AND METHODOLOGY

There are three elements of the engagement: (1) analysis, (2) recommendation and
(3) documentation.

1.	    Analysis. In analysis, the Contractor shall obtain the description of the current
       PMS Accrual Process and Monthly Reconciliation Report process and develop an
       analysis program. DPM will provide technical assistance and a description of the
       report processes. The analysis culminates in preparation of an analysis program
       detailing the analysis methods, proposed alternative processes for review, and
       required testing. Proposed revisions to the analysis program must be discussed in
       advance with the Project Officer (PO). Before concluding this step, the
       Contractor shall arrange and attend meetings with DPM management to facilitate
       agreement on the analysis program.

2.	    Recommendation. In its recommendations, the Contractor conducts a review
       sufficient to render a view as to the effectiveness of the financial reporting
       processes described above and make recommendations for improvement, if
       necessary. The contractor may have to analyze alternative methodologies to
       existing PMS processes in order to form an opinion of the processes and make
       recommendations. No limitations shall be placed thereon.

3.	    Documentation. In its documentation, the Contractor shall prepare one report that
       separately documents the recommended financial reports and processes including
       recommended modifications to the report processes, if any. Proposed revisions to
       the financial reporting processes must be discussed in advance with the PO. The
       Contractor will include detailed specifications for any modifications required to
       implement the recommendations. Before concluding this step, the Contractor shall
       obtain the PO’s concurrence on the recommended modifications to the report



                                         45

             processes. The Contractors shall arrange and attend meetings with DPM
             management to facilitate agreement on the recommended modifications to the
             report processes.

II.   DELIVERABLES

      The delivery date for both processes is 90 days from date of award, however, note that the
      accrual process is contingent upon timely completion of the first process of this contract.

      A.     ANALYSIS PROGRAM

      The Contractor shall deliver to the PO for approval an analysis program in hard copy and
      on a WordPerfect 7.0 disk.

      B.     RECOMMENDATIONS

      The Contractor shall deliver to the PO for approval recommended financial report process
      changes in hard copy and on a WordPerfect 7.0 disk.

      C.     DOCUMENTATION

      The Contractor shall deliver to the PO for approval documentation in hard copy and on a
      WordPerfect 7.0 disk.

      The contractor will consult with DPM management as DPM management and OPDIV’s
      conduct testing of the modified financial reporting processes to validate the accuracy of
      the reports and compatibility of the reports with user financial accounting systems.

      All draft contractor reports and final contractor reports must contain specific references to
      the applications, services, or other aspects of PMS and a description of the scope and
      nature of PMS procedures.

      1.	    All reports should be written in sufficient detail so that a PMS user would be
             convinced by the validity and significance of the conclusions, and
             recommendations presented.

      2.	    The Contractor shall provide the PO/Monitor with reports in both hard copy and
             on a WordPerfect disk file in accordance with the attached schedule of
             deliverables. The PO/Monitor will provide either written or oral comments to the
             Contractor within the period specified in Payment and Acceptance of Work section
             of this contract. The review comments are for consideration by the contractor and
             are not intended to compromise the contractor’s professional responsibilities.

      3.	    The Contractor shall issue the discussion draft report to DPM officials to solicit
             their comments.




                                               46

        4.	    Reports shall be unbound. The Contractor shall produce five copies of each
               report.

        5.	    To facilitate timely DPM management responses to the deliverables, the
               Contractor should keep DPM management appraised of problems throughout the
               period of conducting the engagement.

III.	   PERIOD OF PERFORMANCE
        The period of performance for this Delivery Order shall begin on the date of the
        Contracting Officer’s signature and end no later than the date listed in the schedule of
        deliverables plus 60 days.

IV.     PAYMENTS AND ACCEPTANCE OF WORK

        Payment shall be made following acceptance by the Project Officer, within the period
        allotted, of the specified deliverables for that element. Payment shall not be due until the
        conclusion of the period allotted. In all cases, payment shall only be made upon
        acceptance by the Project Officer/Task Monitor (PO/TM) of satisfactory products and
        progress. Progress reports are considered prescribed products. The determination of
        whether products are satisfactory is at the sole discretion of the PO/TM.

V.      CONTACTS

        Performance under this Delivery Order will be closely coordinated with and monitored by
        the PO, the TM, and any other member designated by the PO. Questions pertaining to the
        scope of work and requests for technical guidance and direction should be directed to the
        PO/TM or other designated DPM representative. However, only the HHS Contracting
        Officer or the Contract Administrator for the basic contract may make changes to the
        terms and conditions of this Delivery Order. The PO/TM will provide the necessary
        background information and guidance and will facilitate, but not provide, access to
        responsible officials and records.

        The name, address and phone number of the Project Officer is:

               [insert name, address, voice phone, fax and e-mail]

        The name, address and phone numbers of the Task Monitors are:

               [insert name, address, voice phone, fax and e-mail]




                                                 47

VI.    PROGRESS REPORTS and MEETINGS

       Throughout the engagement the Contractor shall prepare and submit to the PO and the
       HHS Contracting Officer an oral progress report weekly and a detailed biweekly progress
       report both in hard copy and electronic file format. The biweekly report shall be
       submitted within 3 days of the conclusion of the weekly period. Biweekly progress
       reports shall be succinctly written and directly pertinent only to the work performed for
       this engagement.

       The Contractor shall include in the reports the progress of the engagement, including
       discussions with the PO/TM, Contracting Officer, DPM and user agency management, and
       other contractors performing work under DPM contracts. The reports shall provide the
       following information under the headings shown:

       a.     Work Performed in the previous two weeks
       b.     Work Planned for the next two weeks
       c.     Changes to the engagement
       d.     Work Delays and Cause
       e.	    Time Summary: This information shall document the approximate time expended
              by Contractor staff on the engagement and shall be shown by staff level (e.g.,
              partner, manager, auditor) for (1) the period of the report, and (2) commutatively,
              by contract element and total.

       Progress reports are critical to effective monitoring of engagement progress, and they are
       to be the primary means of disclosing work progress and results. Reports considered
       inadequate by the PO will be returned to the Contractor for re-submission within three
       working days.

VII.   KEY PERSONNEL

       Names of the key personnel are to be listed in the task order proposal. The Contractor is
       requested to submit resumes of the staff proposed for the task order. Use of individuals
       other than those listed in the task order proposal must be approved, in advance and in
       writing, by the PO/TM.

VIII. LOCATION OF WORK

       Records and systems to be examined under the contract are located in the vicinity of
       Rockville, MD.

IX     TYPE OF DELIVERY ORDER

       This is a firm fixed price delivery order




                                                   48

X.    SCHEDULE OF DELIVERABLES

      The deliverable dates listed below — except for the discussion draft reports and the final
      reports — are approximations and may, at the discretion of the PO/TM be adjusted up to
      60 working days later than indicated without contract modifications. However, if the
      Contractor cannot deliver the discussion draft reports or the final reports by the date
      scheduled below, the Contractor shall notify the CO and PO/TM immediately upon
      making that determination and provide a written justification for extension of the final
      delivery date.

                                    SCHEDULE

Contractor’s Milestones                                    Delivery Dates

Complete Element I                                         65 days from date of contract award
Complete Element II                                        75 days from date of contract award
Complete Element III                                       90 days from date of contract award




                                              49

                                                                               APPENDIX C


Note: this appendix contains a limited number of clauses of special interest. There are many other
“boiler plate” clauses that are required or should be considered for inclusion in a contract. Such
clauses are listed in the FAR Matrix and may be obtained from your contracting officer.

                     Sample Contract Clauses —

               Contractor’s Conflict of Interest Statement

K. DECLARATION OF INDEPENDENCE AND CONFLICT OF INTEREST
   STATEMENT
(a) GENERAL PROVISION.
For proper performance of Office of Inspector General business and to maintain the independence
of the Inspector General, Contractors shall certify that they are not aware of any conflict of
interest situations at the time the contract is awarded and agree not to enter into any contract that
will create or appear to create a conflict of interest for the Inspector General.
(b) REQUIREMENTS.
The Contractor must comply with the following requirements.
      i. Sign a Declaration of Independence and Conflict of Interest Statement.
       ii. 	Notify the Office of Inspector General of any identity of all other clients contracted
            with during the past 2 years and currently under contract and provide any information
            needed concerning the work performed for these clients as determined by the Office of
            Inspector General.
       iii. Notify the Office of Inspector General of any potential new contract with the entity
           being audited or reviewed under current Office of Inspector General contract that
           might pose a conflict of interest.
       iv. Comply with all contract conflict of interest clauses, such as complying with
           Government Auditing Standards.
(c) EXAMPLES.
The following examples illustrate situations in which questions concerning conflict of interest may
arise, and are not inclusive.
       i. 	 Employing a former employee of the Office of Inspector General or the entity to be
            audited who has information that enables the Contractor to gain an unfair competitive
            advantage.
       ii. 	Auditing a system that was developed or designed by the Contractor or an employee of
            the Contractor.
(d) PENALTIES.

If the Contractor fails to comply with the above requirements, it may be considered a material

breach of the contract subject to monetary penalty and termination for default or other legal

action, such as debarment from future Federal contracts.

(e) CERTIFICATION.
I certify that I have read and fully understand the above information and what is required under
the contract concerning conflict of interest.
Signature:_________________________________ Date:______________________




                                                 50

                         Sample Contract Clause — 

                     Sections G and H of Considerations

[Note, most agencies have internal approval procedures when using special clauses such as the
following. Sections G and H are suggestions for placement in the contract if the uniform contract
format is used.]

G. TECHNICAL DIRECTION (date)
Performance of the work under this contract shall be subject to the technical direction of the
Project Officer. The term “technical direction” is defined to include directions which serve to
accomplish the contractual statement of work such as interpretation of the work description or
review, and where required by the contract, approval of technical information to be delivered by
the Contractor to the Office of Inspector General, under the contract.

Technical direction must be within the general scope of work stated in the contract. The Project
Officer does not have authority to and may not issue any technical directions which (i) constitutes
an assignment of additional work outside the general scope of the contract; (ii) constitutes a
change as defined in the contract clause entitled “Changes”; (iii) in any manner causes an increase
or decrease in the total estimated contract performance; or, (iv) changes any of the expressed
terms, conditions, or specifications of the contract.

All technical directions shall be issued in writing by the Project Officer or shall be confirmed by
the Project Officer in writing as soon as possible but in any event within five working days of oral
issuance. The Contractor shall proceed promptly with the implementation of all technical
directions from the Project Officer in the manner prescribed by this clause and within the authority
of the provisions of this clause.

If in the opinion of the Contractor, any instruction or direction issued by the Project Officer is
within one of the categories defined in (i) through (iv) above, the Contractor shall not proceed but
shall notify the Contracting Officer in writing as soon as practicable but in any event within five
working days after the receipt of any such instructions or directions, and shall request the
Contracting Officer to modify the contract accordingly. Upon receiving such notification from
the Contractor, the Contracting Officer shall determine if the direction given is within or outside
the terms of the contract and if outside issue a modification (hopefully bilaterally after discussions
with the Contractor), or advise the Contractor in writing that the technical direction is within the
terms of this clause and does not constitute a change under the “Changes” clause of this contract.
If the Contractor should not concur with the Contracting Officer’s determination, the Contractor
shall proceed immediately with the direction given. A failure of the parties to agree upon the
nature of an instruction or direction, or upon the contract action to be taken with respect thereto
shall be subject to the provisions of the contract clause entitled “Disputes.”

H. SAFEGUARDING OF INFORMATION (date)
The Contractor and its employees shall not communicate to any person any information known to
them by reason of their performance of services under this contract which has not been made
public, except in the necessary performance of their duties or upon written authorization of the



                                                 51

Contracting Officer. All documents and records (including photographs) generated during the
performance of work under this contract shall be for the sole use of and become the exclusive
property of the U.S. Government. Furthermore, no article, book, pamphlet, recording, broadcast,
speech, television appearance, film or photograph concerning any aspect of work performed
under this contract shall be published or disseminated through any media without the prior written
authorization of the Contracting Officer. These obligations do not cease upon the expiration or
termination of this contract. The Contractor shall include the substance of this provision in all
contracts of employment and in all subcontracts hereunder.

H. RESTRICTIONS AGAINST DISCLOSURE (date)
a.	  Subject to the provisions of paragraph (c) below, the contractor agrees, in the
     performance of this contract, to keep all information which is obtained or otherwise
     unavailable to the general public, in the strictest of confidence. The Contractor acquires
     neither possessory nor proprietary interests in such information. The Contractor agrees
     not to publish, reproduce, or otherwise divulge such information in whole or in part, in
     any manner or form, at any time, during or following contract performance, nor authorize
     or permit others to do so. The Contractor agrees to take such reasonable measures as are
     necessary to restrict access to such information to those employees needing such
     information to perform the work provided herein, i.e., on a “need to know basis.” The
     Contractor agrees to immediately notify the Contracting Officer’s Representative, in the
     event that he or she determines or had reason to suspect a breach of any of these
     requirements or restrictions, and to provide written notification as soon as possible.

b.	    The Contractor agrees to include the above clause or equivalent language in any
       agreement or subcontract hereunder.

c.	    The Contractor agrees not to disclose any information concerning the work under this
       contract to any persons or entities unless prior written approval is obtained from the
       Contracting Officer.

H. CONTRACTOR GENERATED MATERIAL (date)
All material generated by the Contractor under this contract, including printouts and analytical
reports in whatever form (e.g., computer tapes, audio, video) is the property of the Government.
An inventory list of all such material shall be provided to the Government not less than sixty
(60) days prior to the end of the contract. The material shall be delivered to the Office of
Inspector General upon completion of the contract except for any items of material for which the
Office of Inspector General has elected in writing not to take delivery. No Contractor generated
material shall be made available or sold to any requesting Government or private entity without
the prior written approval of the Contracting Officer. “Material” for purposes of this clause shall
not be deemed to include Contractor’s business and financial records, such as time sheets, payroll
records, and internal memoranda that does not contain classified, proprietary or otherwise
sensitive information obtained during contract performance. In addition, no mailing lists are to be
made by the Contractor using this contract’s material for any reason or purpose unless specifically
authorized or required elsewhere in the contract.




                                                52

                    Sample Contract Clause — 

        Section H - Other Optional Contract Considerations

[The following clauses should be considered for inclusion based on need. They should be tailored
to the individual Offices of Inspector General and to the individual contract. If the standard
contract format is being used they normally appear in section H.]

H. ADVISORY AND ASSISTANCE SERVICES (date)
The contractor agrees to determine whether or not any consultant to be utilized under this
contract has in effect an agreement with the Federal Government for similar services at a lesser
consultant rate than that offered under this contract and, if so, to advise the Contracting Officer
accordingly, prior to the formalization of an agreement for consultant services.

H. PROJECT PERFORMANCE (date)
The activities and milestones outlined in the Contractor’s work plan will serve as the mechanism
by which the Contractor’s performance will be measured. The monthly progress reports
submitted by the Contractor will reflect accomplishments according to this plan. Any changes to
the milestones’ completion dates must be approved, in writing, by the Project Officer.




                                                 53

                           Sample Contract Clause — 

                                Key Personnel

[Note, most agencies have contract clauses addressing key personnel. The Uniform Contract
Format sections C and H are suggestions for placement in the contract.]

Section C of the contract:

KEY PERSONNEL
Key personnel, by labor category, have an asterisk in Section B of the contract. They are
essential to performance of the contract. The contractor shall not divert key personnel working
under a delivery order without the written consent of the Contracting Officer or his or her
representative. The contractor shall submit requests for proposed changes as stated in Section H
-- Key Personnel. [Security clearance provisions may be added to this clause as needed.]

Section H of the contract:

H. KEY PERSONNEL (date)
[Note: one Office of Inspector General applied the following type of clause to all of the
contractor’s staff. However, including all of the contractor’s staff for coverage might work well
on small contracts but would probably be administratively unworkable for larger contracts.]

(a)    The Contractor shall assign to this contract the following key personnel:
             Labor Category                           Name
             Partner/Principal                        (names)
             Audit Manager                            (names)
             Supervisor                               (name)
             Project Manager                          (names)

(b)	   The Contractor agrees that a partial basis for award of this contract is the list of key
       personnel proposed. Accordingly, the Contractor agrees to assign to this contract those
       key persons whose resumes were submitted with the proposal to fulfill the requirements of
       the contract. No substitution shall be made without prior notification to and concurrence
       of the Contracting Officer. During the first ninety days of performance, the Contractor
       shall make no substitutions of key personnel unless the substitution is necessitated by
       illness, death, or termination of employment.

(c)	   All proposed substitutes shall meet or exceed the qualifications of the person to be
       replaced. The Contracting Officer shall be notified in writing of any proposed substitution
       at least forty-five days, or ninety days if a security clearance is to be obtained, in advance
       of the proposed substitution. Such notification shall include: (1) an explanation of the
       circumstances necessitating the substitution; (2) a complete resume of the proposed
       substitute; and (3) any other information requested by the Contracting Officer to render a
       judgment whether or not the Contractor is maintaining the same quality of personnel that
       provided the partial basis for award.



                                                 54

                         Sample Contract Clause --

                       Contractor’s Pride of Authorship

As delineated in this statement of work, the Contractor is required to prepare written material
including opinions and advice. The Contractor is hereby put on notice that the Office of Inspector
General (through the Contracting Officer’s Technical Representative) may require the Contractor
to make numerous revisions to the material (and should anticipate up to [insert number] extensive
revisions or equivalent to the entire document in terms of effort required under this contract) in
addition to the Contractor’s first draft. If the Contractor feels the equivalent of previously said
number of extensive revisions has been reached and that further work requires a change in terms
of the contract, he or she must advise the Contracting officer and request and obtain written
guidance before continuing with additional changes. Furthermore, the Contractor will not be held
responsible for the content of the changes directed by the Office of Inspector General, nor should
Contractor expect that a “pride of authorship” will relieve them from the responsibility of
preparing the changes as requested. In short, the Contractor should expect to make changes in
the material prepared by the Contractor and as directed by the Office of Inspector General
without hesitancy on a basis of “pride of authorship” or because their professional opinion dictates
the material should not be changed, etc.




                                                55

                   Sample Contract Clause --

        Task Order Competition and Ordering Procedures

G. TASK ORDERS (date)
(a)	 Task order requests normally shall be issued in writing to the Contractor by the
     Contracting Officer and will describe the specific support required by the Office of
     Inspector General. A “Task Order Request” is a request for proposal; it is not a “Task
     Order” and does not authorize performance. These documents may be issued by facsimile
     and the Contractor’s response may be permitted by facsimile in accordance with Federal
     Acquisition Regulation clause 52.214.31 Facsimile Bids (Dec. 1989). Or, these
     communications may be made using electronic commerce if both parties agree.

(b)    Each Task Order Request shall include, at a minimum:
             (1) a description of the work to be performed;
             (2) reporting, briefings, and other deliverable requirements; and
             (3) the estimated period of performance or required completion date.

(c)	   The Contractor shall, within five working days (unless a different time is given) of the
       receipt of a Task Order Request, submit to the Contracting Officer’s Technical
       Representative a written technical proposal and a separate detailed cost proposal. Late
       responses need not be considered. A cost proposal shall include the following, as
       applicable:

       (1) the required number of labor hours by labor classification and labor rates;

       (2) overtime hours and rates by labor category;

       (3) direct material, travel, subsistence, and similar costs;

       (4) dollar amount and type of any proposed subcontracts(s);

       (5) total estimated price; and,

       (6) proposed completion or delivery dates.


(d)	   The Contracting Officer’s Technical Representative shall review the proposal and forward
       written recommendations, along with a copy of the proposal, to the Contracting Officer.
       Following successful negotiations of the Contractor’s proposal, the Contracting Officer
       shall issue a written Task Order to the Contractor providing the necessary funding and
       authorizing the Contractor to begin work.

(e)	   If multiple awards have been made, procedures may vary from contract to contract about
       how to decide which contractor will get which task order. Most service contracts provide
       for all Contractors to be given a fair chance to compete for each task order. In such cases,
       task order award will be made on a best value basis. However, greater consideration will
       be given to price in determining which Contractor will receive the task order because all
       contractors are considered technically capable.




                                                56

(f)	   The Office of Inspector General shall not be obligated to pay the Contractor any amount
       in excess of the Total Task Order amount, and the Contractor shall not be obligated to
       continue performance if to do so would exceed the total Task Order amount.

(g)	   Protests are not authorized in connection with the issuance or proposed issuance of a Task
       Order except for a protest on the grounds that the order increases the scope, period, or
       maximum value of the contract under which the order is issued.

(h)	   The Contractor shall not be required to compete. The Contractor may elect not to submit
       a quotation and such election shall not preclude the Contractor from an opportunity to
       quote on future orders.

(i)	   A customer satisfaction survey may be used to evaluate the Contractor in performance of
       each task order. The Office of Inspector General (or other agencies) may use the results
       of these surveys as a measure of past performance when making future Task Order awards
       under this contract or for future contracts.




                                               57

                                                                                                     APPENDIX D




                                Federal Acquisition Regulation
                                   Technical Definitions of
                                       Glossary Terms

“Advisory and assistance services” means those services provided under contract by nongovernmental sources to support or
improve: organizational policy development; decision-making; management and administration; program and/or project
management and administration; or R&D activities. It can also mean the furnishing of professional advice or assistance
rendered to improve the effectiveness of Federal management processes or procedures (including those of an engineering and
technical nature). In rendering the foregoing services, output may take the form of information, advice, opinions, alternatives,
analyzes, evaluations, recommendations, training and the day-to-day aid of support personnel needed for the successful
performance of ongoing Federal operations. All advisory and assistance services are classified in one of the following
definitional subdivisions:

         (1) Management and professional support services, i.e., contractual services that provide assistance, advice or
         training for the efficient and effective management and operation of organizations, activities (including management
         and support services for R&D activities), or systems. These services are normally closely related to the basic
         responsibilities and mission of the agency originating the requirement for the acquisition of services by contract.
         Included are efforts that support or contribute to improved organization of program management, logistics
         management, project monitoring and reporting, data collection, budgeting, accounting, performance auditing, and
         administrative technical support for conferences and training programs.

         (2) Studies, analyzes and evaluations, i.e., contracted services that provide organized, analytical
         assessments/evaluations in support of policy development, decision-making, management, or administration.
         Included are studies in support of R&D activities. Also included are acquisitions of models, methodologies, and
         related software supporting studies, analyzes or evaluations.

         (3) Engineering and technical services, i.e., contractual services used to support the program office during the
         acquisition cycle by providing such services as systems engineering and technical direction (see 9.505-1(b)) to ensure
         the effective operation and maintenance of a weapon system or major system as defined in OMB Circular No. A-109
         or to provide direct support of a weapon system that is essential to research, development, production, operation or
         maintenance of the system. [2.101]

“A blanket purchase agreement” (BPA) is a simplified method of filling anticipated repetitive needs for supplies or services
by establishing “charge accounts” with qualified sources of supply (see Subpart 16.7 for additional coverage of agreements).
[13.303-1]

“Commercial item” means --

         (f) Services of a type offered and sold competitively in substantial quantities in the commercial marketplace based on
         established catalog or market prices for specific tasks performed under standard commercial terms and conditions.
         This does not include services that are sold based on hourly rates without an established catalog or market price for a
         specific service performed; [2.101]

“Organizational conflict of interest” means that because of other activities or relationships with other persons, a person is
unable or potentially unable to render impartial assistance or advice to the Government, or the person’s objectivity in
performing the contract work is or might be otherwise impaired, or a person has an unfair competitive advantage. [9.501]

“Section 8(a) of the Small Business Act” (15 U.S.C. 637(a)) established a program that authorizes the Small Business
Administration (SBA) to enter into all types of contracts with other agencies and let subcontracts for performing those contracts
to firms eligible for program participation. The SBA’s subcontractors are referred to as “8(a) contractors.” [19.800]




                                                               58

“A firm-fixed-price contract” provides for a price that is not subject to any adjustment on the basis of the contractor’s cost
experience in performing the contract. This contract type places upon the contractor maximum risk and full responsibility for
all costs and resulting profit or loss. It provides maximum incentive for the contractor to control costs and perform effectively
and imposes a minimum administrative burden upon the contracting parties. [16.202-1]

“Full and open competition” when used with respect to a contract action, means that all responsible sources are permitted to
compete. [6.003]

“A labor-hour contract” is a variation of the time-and-materials contract, differing only in that materials are not supplied by
the contractor. See 16.601(b) and 16.601(c) for application and limitations, respectively. [16.602]

“Performance-based contracting” means structuring all aspects of an acquisition around the purpose of the work to be
performed as opposed to either the manner by which work is to be performed or broad and imprecise statements of work.
[37.1]

“Personal services contract” means a contract that, by its express terms or as administered, makes the contractor personnel
appear, in effect, Government employees (see 37.104). [37.101]

“Simplified acquisition procedures” means the methods prescribed in Part 13 for making purchases of supplies or services.
[2.201]

“Simplified acquisition threshold” means $100,000, except that in the case of any contract to be awarded and performed, or
purchase to be made, outside the United States in support of a contingency operation (as defined in 10 U.S.C. 2302(8) and 41
U.S.C. 259(d)), the term means $200,000. [2.201]

“Small business concern” means a concern, including its affiliates, that is independently owned and operated, not dominant in
the field of operation in which it is bidding on government contracts, and qualified as a small business under the criteria and
size standards in 13 CFR {art 121 (see 19.102). Such a concern is “not dominant in its field of operation” when it does not
exercise a controlling or major influence on a national basis in a kind of business activity in which a number of business
concerns are primarily engaged. In determining whether dominance exists, consideration shall be given to all appropriate
factors, including volume of business, number of employees, financial resources, competitive status or position, ownership or
control of materials, processes, patents, license agreements, facilities, sales territory, and nature of business activity. [19.001]

A “set-aside for small business” is the reserving of an acquisition exclusively for participation by small business concerns.
[19.501]

“Sole source acquisition” means a contract for the purchase of supplies or services that is entered into or proposed to be
entered into by an agency after soliciting and negotiating with only one source. [6.003]

“Synopses”. As required by the Small Business act (15 U.S.C. 637(e)) and the Office of Federal Procurement Policy Act (41
U.S.C. 416), agencies shall furnish for publication in the Commerce Business Daily (CBD) notices of proposed contract actions
as specified in paragraph (b) of this section. [5.201(a)]

“Task order” means an order for services placed against an established contract or with Government sources. [2.101]




                                                                59

